App. 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
(Filed Mar. 2, 2021)
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 2nd day of March, two
thousand twenty-one.
Present:
DEBRA ANN LIVINGSTON,
Chief Judge,
JOSÉ A. CABRANES,
GERARD E. LYNCH,
Circuit Judges.

App. 2
UNITED STATES OF AMERICA,
Appellee,
17-1541, 17-2166

v.
ELEONORA GIGLIOTTI,
FRANCO FAZIO
Defendants,
v.
GREGORIO GIGLIOTTI,
ANGELO GIGLIOTTI,
Defendants-Appellants.

For Appellee: KEITH D. EDELMAN, Jo Ann M. Navickas,
Margaret E. Gandy, for Seth D. DuCharme,
Acting United States Attorney, Eastern
District of New York, Brooklyn, NY.
For Defendant-Appellant Gregorio:
SCOTT BRETTSCHNEIDER, Forest Hills, NY.
For Defendant-Appellants:
BRENDAN WHITE, White & White, New
York, NY.
Appeal from a judgment of the United States District Court for the Eastern District of New York
(Deane, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.

App. 3
Defendants-Appellants Angelo Gigliotti (“Angelo”)
and Gregorio Gigliotti (“Gregorio”) (collectively,
“Defendants-Appellants”) appeal from their convictions in the United States District Court for the Eastern District of New York entered on June 27, 20171 and
April 24, 2017,2 respectively. Defendants-Appellants
were each convicted of one count of conspiracy to import cocaine, 21 U.S.C. §§ 963, 960(b)(1)(B)(ii); two
counts of importation of cocaine, 21 U.S.C. §§ 952(a),
960(b)(1)(B)(ii); one count of conspiracy to possess cocaine with intent to distribute, 21 U.S.C. §§ 846,
841(b)(1)(A)(ii)(II); and one count of attempted possession of cocaine, 21 U.S.C. §§ 846, 841(b)(1)(A)(ii)(II).
Gregorio was also convicted of unlawful use and possession of firearms, 18 U.S.C. § 924(c)(1)(A)(i), and
possession of a defaced firearm, 18 U.S.C. §§ 922(k),
924(a)(1)(B). We assume the parties’ familiarity with
the underlying facts, the procedural history of the case,
and the issues on appeal.
A. Batson Issue
We review de novo a district court’s determination
that a criminal defendant’s discriminatory use of
gender-based peremptory challenges violated the
Constitution. United States v. Martinez, 621 F.3d 101,
106 (2d Cir. 2010). In doing so, we afford “great deference” to the court’s assessments of the credibility of an
1

Angelo Gigliotti’s final judgment was amended on July 19,
2017 and on December 15, 2017.
2
Gregorio Gigliotti’s final judgment was amended on December 15, 2017.

App. 4
attorney’s explanations for a peremptory challenge,
Davis v. Ayala, 576 U.S. 257, 271 (2015) (internal quotation marks omitted), reviewing only for clear error,
Rice v. Collins, 546 U.S. 333, 338 (2006). A district
court’s determination of whether a party has established a prima facie case under Batson is, moreover,
subject to abuse of discretion review.3 Martinez, 621
F.3d at 109; Batson v. Kentucky, 476 U.S. 79 (1986).
Defendants-Appellants contend that the district
court erred in concluding that their use of peremptory
challenges violated Batson because (1) the government’s Batson objection was not timely; (2) the district
court erroneously rejected the defense’s facially neutral reasons for exercising the strikes; and (3) the district court reseated Juror No. 16 even though the
government had not objected to defense counsel’s justifications for striking this juror. We disagree.
First, we discern no error, much less an abuse of
discretion, in the district court’s determination to entertain the government’s Batson objection while jury
selection was still underway. See Martinez, 621 F.3d at
109-10. The government made its objection minutes
after the end of the peremptory strikes and while the
3

The district court employs a three-part burden-shifting
framework when evaluating potential Batson violations. Under
this framework, if a party objecting to a peremptory strike establishes a prima facie case of discrimination, the opposing party
must then provide a neutral justification for its exercise of the
strike. See Martinez, 621 F.3d at 108-09. At the third step, the
trial court must determine whether the objecting party has met
its ultimate burden to demonstrate that the peremptory challenge
was the result of purposeful discrimination. Id. at 109.

App. 5
court was still in the process of screening potential alternate jurors. See McCrory v. Henderson, 82 F.3d 1243,
1249 (2d Cir. 1996); United States v. Biaggi, 909 F.2d
662, 679 (2d Cir. 1990). The district court then instructed counsel to be prepared to offer reasons for
striking the jurors at a hearing later the same day. This
timing in no way prejudiced defense counsel, nor was
defense counsel likely to have forgotten its reasons for
exercising the peremptory strikes in the intervening
period. Cf. McCrory, 82 F.3d at 1247. Moreover, because
the struck jurors were still in the courthouse, had not
yet been excused, and were able to report back to the
court, a clear remedy was still available at the time of
the government’s objection.4
Second, the district court did not err in applying
the three-part burden-shifting framework for evaluating Batson challenges. The district court found that
the government had established a prima facie case of
4

We also reject Defendants-Appellants’ unpreserved contention that it was error for the district court to consider the sufficiency of defense counsel’s proffered basis for striking Juror 16
after the Government appeared to withdraw its objection to that
strike. The Government initially objected to the strikes of all ten
male jurors. Once the district court found a prima facie case of
discrimination, which it properly did in this case, it had an independent obligation to conduct an inquiry and fashion a remedy if
necessary. The district court is obliged to protect (and the Government cannot waive) the rights of prospective jurors not to be
discriminated against. See, e.g., Georgia v. McCollum, 505 U.S.
42, 49-50 (1992) (“Be it at the hands of the state or the defense, if
a court allows jurors to be excluded because of group bias, it is a
willing participant in a scheme that could only undermine the
very foundation of our system of justice. . . .” (citation, internal
quotation marks, and alterations omitted)).

App. 6
gender discrimination based on defense counsel’s use
of all ten of its peremptory strikes against men. The
court then determined that defense counsel had offered non-discriminatory reasons for challenging each
juror, except for Juror No. 16. In relation to this juror,
defense counsel had suggested that it made the strike
based on “gut” after “discussion with [the] client.” We
agree with the district court that this explanation was
insufficient to rebut the prima facie showing of discriminatory intent in defense counsel’s strike of Juror
16. See Brown v. Kelly, 973 F.2d 116, 121 (2d Cir. 1992)
(“The fact that . . . explanations in the face of a Batson
inquiry are founded on these impressions does not
make them unacceptable if they are sufficiently specific to provide a basis upon which to evaluate their legitimacy.”). At the third step of the burden-shifting
framework, the district court further found defense
counsel’s explanations not credible with respect to the
strike of Juror No. 3. Defense counsel had suggested
that it challenged Juror No. 3 because this juror “went
to verdict in Suffolk County,” “had some law enforcement background,” and had a “fairly pronounced Spanish accent.” The district court found this reasoning
unpersuasive because, inter alia, the record did not reflect that this juror had any law enforcement background, or that he had served on a criminal jury.5 While
5

The district court also noted that the defense did not strike
two other male jurors who had served on criminal juries that
reached a verdict, nor several females who had served on juries.
See Foster v. Chatman, 136 S. Ct. 1737, 1750 (2016) (declining to
credit certain explanations offered by counsel where counsel “willingly accepted” prospective jurors with the same traits).

App. 7
Defendants-Appellants now point to record evidence
that Juror No. 16 had an aunt in law enforcement, defense counsel did not raise this rationale before the district court, and there is no reason to believe that the
district court failed to review the entire record.
Third, the district court did not abuse its discretion by reseating Juror Nos. 3 and 16 to remedy the
Batson violation. At the third step of the burden-shifting framework, the district court was required to determine whether the government had established
purposeful discrimination by considering “all relevant
circumstances surrounding a defendant’s prima facie
showing of discrimination.” Jordan v. LeFevre, 206 F.3d
196, 201 (2d Cir. 2000). After concluding that Jurors
Nos. 3 and 16 had indeed been struck due to discrimination, the district court proceeded to fashion an appropriate remedy. See Georgia v. McCollum, 505 U.S.
42, 49 (1992) (“Regardless of who invokes the discriminatory challenge, there can be no doubt that the harm
is the same—in all cases, the juror is subjected to open
and public . . . discrimination.”). The jury clerk called
back all of the excused jurors and provided a neutral
explanation, thereby avoiding any appearance of irregularity. Accordingly, we conclude that the district court
did not clearly err in granting the government’s Batson
challenge and reseating Jurors Nos. 3 and 16.
B. Administrative Search
Defendants-Appellants next argue that evidence
obtained from a search of their restaurant should have

App. 8
been suppressed because law enforcement, in coordination with New York State Liquor Authority
(“NYSLA”), carried out a pretextual administrative
search of the restaurant prior to obtaining a search
warrant. “On appeal from a district court’s ruling on a
motion to suppress evidence, we review legal conclusions de novo and findings of fact for clear error.”
United States v. Purcell, 967 F.3d 159, 178 (2d Cir.
2020) (internal quotation marks omitted).
The independent source doctrine “permits the admission of evidence seized pursuant to an unlawful
search if that evidence would have been obtained
through separate, lawful means.” United States v.
Vilar, 729 F.3d 62, 83 n.19 (2d Cir. 2013); Segura v.
United States, 468 U.S. 796, 814 (1984). This doctrine
applies where: (1) the warrant is supported by probable cause “derived from sources independent of the illegal entry;” and (2) the decision to seek the warrant
was not “prompted by information gleaned from the illegal conduct.” United States v. Johnson, 994 F.2d 980,
987 (2d Cir. 1993). When considering the second prong,
the “relevant question is whether the warrant ‘would
have been sought even if what actually happened had
not occurred.’ ” Id. (quoting Murray v. United States,
487 U.S. 533, 542 n.3 (1988)).
Here, assuming arguendo that the administrative
search was improper, suppression of the evidence obtained from the restaurant search was not required
because the search warrant later obtained by law enforcement was supported by independent sources, and
the administrative search did not prompt the warrant

App. 9
application. As the district court concluded, the search
warrant application relied on more than six months’
worth of wiretaps carried out prior to the NYLSA
inspection. That investigation had revealed that
Defendants-Appellants were importing cocaine, and
that there was a fair probability that contraband or
evidence of a crime would be found in the restaurant.
Law enforcement had further seized 55 kilograms of
cocaine from produce containers connected with one of
Gregorio’s produce import/export companies, suggesting that Gregorio used his businesses as a cover for his
criminal operations.
Defendants-Appellants contend that the independent source doctrine cannot apply because the NYSLA
search provided law enforcement with details about
the layout of the restaurant. But the warrant application would not have lacked necessary particularity
without this information. See United States v. Clark,
638 F.3d 89, 94 (2d Cir. 2011) (explaining that under
the Fourth Amendment, a warrant application must
“particularly describe[e] the place to be searched, and
the persons or things to be seized” (internal quotation
marks omitted)); United States v. Ross, 456 U.S. 798,
820-21 (1982) (“A lawful search of fixed premises generally extends to the entire area in which the object of
the search may be found and is not limited by the possibility that separate acts of entry or opening may be
required to complete the search.” (footnote omitted)).
Moreover, law enforcement already knew from the
wiretaps and confidential informants that there was
a computer and landline in the restaurant, and that

App. 10
these devices were likely located in the basement of the
restaurant. Accordingly, the district court did not err
in applying the independent source doctrine and denying Defendants-Appellants’ motion to suppress.
C. Foreign Evidence
“We review for abuse of discretion the district
court’s denial of a motion for a new trial.” United States
v. Josephberg, 562 F.3d 478, 488 (2d Cir. 2009). A district court “abuses” or “exceeds” its discretion when:
“(1) its decision rests on an error of law (such as application of the wrong legal principle) or a clearly erroneous factual finding, or (2) its decision—though not
necessarily the product of a legal error or a clearly
erroneous factual finding—cannot be located within
the range of permissible decisions.” Zervos v. Verizon
N.Y., Inc., 252 F.3d 163, 169 (2d Cir. 2001) (footnotes
omitted). “In determining whether to grant a Rule 33
motion, the ultimate test is whether letting a guilty
verdict stand would be a manifest injustice.” United
States v. Walker, 974 F.3d 193, 208 (2d Cir. 2020) (internal quotation marks and alteration omitted).
“[W]iretap evidence may be admissible when foreign officials, acting on their own to enforce foreign law,
properly follow their own law in obtaining the evidence, even where the subject of the foreign search is
an American citizen.” United States v. Maturo, 982 F.2d
57, 60 (2d Cir. 1992) (citation omitted). In Maturo, this
Circuit “recognized two circumstances where evidence
obtained in a foreign jurisdiction may be excluded”:

App. 11
(a) “where the conduct of foreign officials in acquiring
the evidence is so extreme that [it] shock[s] the judicial
conscience[,]” or (b) “where cooperation with foreign
law enforcement officials may implicate constitutional
restrictions.” Id. at 60-61 (internal citation and quotation marks omitted). “Within the second category for
excluding evidence, constitutional requirements may
attach in two situations: (1) where the conduct of foreign law enforcement officials rendered them agents,
or virtual agents, of United States law enforcement officials; or (2) where the cooperation between the United
States and foreign law enforcement agencies is designed to evade constitutional requirements applicable
to American officials.” Id. at 61 (citation omitted).
Here, the district court did not abuse its discretion
in rejecting Defendants-Appellants’ motion for a new
trial, which it construed as a motion to suppress evidence under Fed. R. Crim. P. 12(b)(3). The district court
appropriately concluded that the documents provided
to the court concerning the Italian legal proceedings
did not demonstrate a violation under Maturo. As it
reasoned, the documents did not suggest that the conduct of Italian law enforcement rendered those officials
“agents, or virtual agents” of U.S. law enforcement. Id.
While Angelo argues that the district court overlooked testimony provided by Inspector Giampietro
Muroni, that testimony does not call into question the
independent nature of the Italian law enforcement
effort. See United States v. Getto, 729 F.3d 221, 231
(2d Cir. 2013) (“Defendant’s allegations, even if credited, demonstrate only robust information-sharing and

App. 12
cooperation across parallel investigations and do not
contradict the government’s claim that the [foreign] investigation was not controlled or directed by American
law enforcement.”); United States v. Lee, 723 F.3d 134,
141 (2d Cir. 2013) (finding no Maturo violation despite
the Drug Enforcement Administration and Jamaican
authorities having “agreed on several measures designed to facilitate collaboration and cooperation in
transnational drug investigations”). The district court
therefore also did not abuse its discretion by failing to
hold a new suppression hearing. United States v.
Helmsley, 985 F.2d 1202, 1209-10 (2d Cir. 1993) (“No
hearing is required on a new trial motion if the moving
papers themselves disclosed the inadequacies of the
defendants’ case, and the opportunity to present live
witnesses would clearly have been unavailing.” (internal alteration and quotation marks omitted)).6

6

We also reject Defendants-Appellants’ related argument
based on Franks v. Delaware, 438 U.S. 154 (1978). Under Franks,
evidence obtained pursuant to a wiretap application containing
erroneous information may be suppressed if the defendants show
that: “(1) the claimed inaccuracies or omissions are the result of
the affiant’s deliberate falsehood or reckless disregard for the
truth; and (2) the alleged falsehoods or omissions were necessary
to the issuing judge’s probable cause or necessity finding.” United
States v. Rajaratnam, 719 F.3d 139, 146 (2d Cir. 2013) (alterations and internal quotation marks omitted). Here, assuming
arguendo that the government’s search warrant application included any minor errors and omissions, there is no evidence to
support the conclusion that such inaccuracies were deliberate or
reckless, or that they were material to the wiretap application,
which was supported by ample evidence.

App. 13
D. Sufficiency of the Evidence—18 U.S.C.
§ 924(c)
We review challenges to the sufficiency of the evidence de novo. United States v. Harvey, 746 F.3d 87, 89
(2d Cir. 2014). “A defendant seeking to overturn a jury
verdict on sufficiency grounds bears a heavy burden.”
United States v. Anderson, 747 F.3d 51, 59 (2d Cir.
2014) (internal quotation marks omitted). When assessing a sufficiency challenge, “[w]e must view the evidence in the light most favorable to the government,
crediting every inference that could have been drawn
in the government’s favor, and deferring to the jury’s
assessment of witness credibility, and its assessment
of the weight of the evidence.” United States v. VargasCordon, 733 F.3d 366, 375 (2d Cir. 2013) (internal quotation marks omitted). We will uphold the conviction if
“any rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt.”
United States v. Coplon, 703 F.3d 46, 62 (2d Cir. 2012)
(internal quotation marks omitted).
To convict under 18 U.S.C. § 924(c), the government must prove that the defendant knowingly possessed a firearm in furtherance of a drug trafficking
crime. See Untied States v. Finley, 245 F.3d 199, 203 (2d
Cir. 2001). Possession is considered “in furtherance of ”
a drug trafficking crime within the meaning of § 924(c)
if there was “some nexus between the firearm and
the drug [crime].” Id. While “the mere presence of a
weapon at the scene of a drug crime, without more, is
insufficient to prove that the gun was possessed ‘in furtherance of ’ the drug crime,” United States v. Snow,

App. 14
462 F.3d 55, 62 (2d Cir. 2006) (internal quotation
marks and emphasis omitted), this requirement is satisfied where the gun had “the potential of facilitating
[a] drug trafficking offense,” Smith v. United States,
508 U.S. 223, 238 (1993) (internal quotation marks and
alterations omitted). Here, law enforcement recovered
seven firearms and a large collection of ammunition
from the basement of the restaurant. One witness, a
former co-conspirator, testified to having seen Gregorio
pull a gun out of a drawer in the restaurant basement,
which served as the center of operations for Gregorio’s
drug import operation, commenting that he was in a
difficult business and that “[y]ou need to protect the
merchandise. You need this.” That same witness also
saw Gregorio with cocaine in the basement. Several
of the firearms were found in safes also containing
$100,000 cash, two holsters, illegal brass knuckles, and
a ledger documenting drug proceeds, and one of the
firearms was small enough to fit in a pocket and had a
defaced serial number. While Gregorio argues that the
weapons could not have facilitated the drug scheme because they were locked away, this argument is unavailing. See Finley, 245 F.3d at 203 (finding possession
where a defendant “knowingly [had] the power and the
intention at a given time to exercise dominion and control over an object” (internal quotation marks omitted)); United States v. Lewter, 402 F.3d 319, 322 (2d Cir.
2005) (“Possession of a firearm to defend a drug stash
clearly furthers the crime of possession with intent to
distribute the contents of that stash.”). A rational jury
could have found a “nexus between the firearm[s] and
the drug [crimes].” Finley, 245 F.3d at 203. Accordingly,

App. 15
we reject Gregorio’s sufficiency challenge and affirm
his conviction under 18 U.S.C. § 924(c).
E. Retention of a Juror
Lastly, Defendants-Appellants argue that the
district court abused its discretion in declining to
dismiss Juror No. 3, who had informed the court that
she needed to leave for a wedding by a specific time.
“Whether in the circumstances ‘just cause’ exists to excuse a juror is a matter within the discretion of the district court.” United States v. Ruggiero, 928 F.2d 1289,
1300 (2d Cir. 1991) (internal quotation marks omitted).
In this case, the district court decided not to dismiss the juror but instead called in the jury and instructed it that it was not to rush and that, if necessary,
arrangements would be made to prevent Juror No. 3
from missing her scheduled event. In total, the jury deliberated for approximately one full day and acquitted
Angelo on two counts. There is no evidence to suggest
that the jury was rushed, and no juror raised any concern about what the jury was to do in the event that it
could not complete deliberations before Juror No. 3’s
departure. See United States v. Herrera, 704 F.3d 480,
489 (7th Cir. 2013). Defense counsel also did not object
to the district court’s course of action, despite consulting with the court about the issue. Accordingly, the district court did not abuse its discretion in declining to
dismiss Juror No. 3.
*

*

*

App. 16
We have considered Defendants-Appellants’ remaining arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district
court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 17
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
------------------------------------- x
UNITED STATES
MEMORANDUM
OF AMERICA,
& ORDER
- against (Filed May 15, 2019)
ANGELO GIGLIOTTI,
15 CR 204 (RID)
Defendant.
------------------------------------- x
DEARIE, District Judge
On July 22, 2016, defendant Angelo Gigliotti
(“Angelo”) was convicted by a jury alongside his father, and co-defendant, Gregorio Gigliotti (“Gregorio”)
of conspiring to import cocaine and related substantive
charges, and possessing firearms in relation to his
drug charges. At trial, the government argued Angelo’s
criminality was the result of his affiliation with the
Genovese organized crime family of La Cosa Nostra
and the Italian organized crime group ‘Ndrangheta.
Angelo now moves under Federal Rule of Criminal
Procedure 33 for a new trial on the basis of “new” evidence showing that there was a joint investigation
between Italian and American law enforcement authorities in violation of the principles set forth in
United States v. Maturo, 982 F.2d 57 (2d Cir. 1992), and
that as a result of this purported Maturo violation,
American authorities acquired material evidence leading to Angelo’s conviction. Indeed, Angelo argues the
jury heard and saw evidence that should have been

App. 18
suppressed, and without which, he would not have
been convicted. This is Angelo’s third attempt to convince the Court there was an improper joint investigation between Italian and American law enforcement
authorities, and for the reasons set forth below, Angelo’s motion is denied.
BACKGROUND
A. Italian and American Investigative Efforts Related to Organized Crime.
Italian and American law enforcement authorities have investigated suspected members of ItalianAmerican organized crime families including their
networks, businesses, associates and criminal activities for decades. American law enforcement efforts in
this district have focused on La Cosa Nostra, a U.S.based syndicate of the Sicilian Mafia. La Cosa Nostra
is comprised of a number of crime “families,” including
the Genovese crime family. Similarly, Italian law enforcement efforts span a variety of criminal organizations, including ‘Ndrangheta, “an extremely powerful
and violent international organized crime group . . .
based in the southern Italian province of Calabria.” LaMarca Aff., ECF No. 302-1, ¶ 10.
Overtime, and over the course of other criminal
proceedings, Italian and American authorities learned
that members of the ‘Ndrangheta “ha[d] conducted
international narcotics smuggling and trafficking
through the New York metropolitan area together with
syndicate members in Calabria, Italy” and involving

App. 19
members of La Cosa Nostra, specifically the Genovese
crime family. Id. ¶ 18. In 2007, Italian law enforcement
authorities commenced an investigation into certain
drug trafficking routes from New York to Italy, which
“ultimately resulted in the arrest and/or indictment of
hundreds of people in the United States and Italy.” Id.
¶ 19.
A number of those charged chose to cooperate with
U.S. law enforcement authorities leading to new investigative leads and persons of interest, including Gregorio. For example, one of those arrested was an
American named Christopher Castellano. Castellano
began cooperating with prosecutors from the Southern
District of New York around 2008, during which time
he told the government he “personally observed” FBI
Confidential Informant 1 (“CI-1”) meet with Gregorio
and that Gregorio purchased $50,000 worth of cocaine
directly from CI-1. Id. ¶ 21. Similarly, in 2008, CI-1
disclosed that Gregorio “directed CI-1 to deal [with]
him with respect to the purchase and payment for cocaine” and that “[t]hereafter, [Gregorio] purchased approximately 3 kilos of cocaine through CI-1,” which he
shipped to Italy “via an unknown carrier or shipping
company.” Id. ¶ 21. CI-1 also stated that he would meet
Gregorio at a park bench in front of Gregorio’s pizzeria,
Cucino Amodo Mio, where Gregorio would provide CI1 a bag of cash in exchange for cocaine. Id. ¶ 25. Accordingly, by at least 2008, American law enforcement
officials were already attuned to criminal activity associated with Cucino Amodo Mio and the Gigliotti family.

App. 20
Separately, in November 2011 federal agents from
the Organized Crime Strike Force conducted visual
surveillance of Gregorio around his restaurant and observed Gregorio meeting with a known cocaine supplier. Id. ¶ 30. Later that month, agents consensually
monitored a phone call between FBI Confidential Informant 4 (“CI-4”) and Gregorio where Gregorio told
CI-4 about an attempted break-in at Cucino Amodo
Mio. Id. ¶ 33. Agents listening in understood that the
conversation, though spoken in code, revealed that
Gregorio suspected the break-in was an attempt to
steal cocaine stored at Cucino Amodo Mio. Id. According to CI-4, at the time Gregorio was storing approximately 14 kilograms (worth $500,000) of cocaine in his
restaurant. Id.
In 2013, FBI Confidential Informant 3 (“CI-3”)
witnessed a conversation between Gregorio and Angelo in which Gregorio mentioned he was looking for
new cocaine distribution partners in Calabria, Italy. Id.
¶ 35. By February 2014, Gregorio stated to CI-3 that
he had recently traveled to Calabria in search of cocaine buyers but that he only managed to sell 7 of the
10 kilograms he had and was looking for a more reliable distribution partner. Id. On May 6, 2014, the Italian
National Police provided U.S. law enforcement with an
intercept of a conversation from the landline at Gregorio’s restaurant, Cucino Amodo Mio (“Restaurant
Phone”). Id. ¶ 37. Throughout the call Gregorio referred to “olive oil,” which agents understood to be code
for cocaine. Id. ¶ 38. As the government explains, and
as previously represented to this Court during the

App. 21
criminal proceedings, conversations taking place over
the Restaurant Phone were intercepted by Italian authorities even though the landline itself was not the
subject of an Italian wiretap. In other words, communications to or from the Restaurant Phone were “secured through Italian judicial orders and through the
use of Italian or other international telecommunication facilities” and at no time did any “American agency
provide[ ] any assistance in wiretapping . . . [n]or did
any American telephone company or facility provide
technical assistance.” Gov’t Opp. Br., ECF No. 304, at
2-3 (citing ECF No. 109, at 2).1 Specifically, the “olive
1

On April 19, 2019, more than a month after filing his Reply
Brief, counsel for Angelo provided the Court with additional Italian court documents, referring to, inter alga, “wire-tappings . . .
activated on a Gigliotti mobile number and a restaurant number”
as well as “international wire tappings.” ECF No. 309, at 13. The
Court requested clarification of the translation and the extent to
which “Italian law enforcement ever wire-tapped, as opposed to
intercepted communications with, the Restaurant Phone.” Defense counsel provided the Court with a second translation from
a different translator corroborating the initial translation of the
term “wire taps.” ECF No. 311. However, the government reiterated that regardless of the translations, “the Italian authorities
did not ‘wiretap’ the Restaurant Phone, insofar as they did not
monitor every call occurring to or from the Restaurant Phone,
only those that either originated or terminated in Italy,” and they
did so “without any technical assistance from the United States
government or U.S.-based service providers.” ECF No. 310. The
government’s representations indicate that the Restaurant Phone
itself was not the subject of an Italian wiretap; rather, wiretaps
secured on phones in Italy picked up calls to and from the Restaurant Phone. In any event, for the reasons set forth throughout
this Opinion, regardless of the nature of the investigative techniques employed by Italian authorities, their purpose was not to
serve as a pretext for American law enforcement to circumvent

App. 22
oil” intercept provided to U.S. law enforcement came
from an Italian wiretap of an Italian telephone number
belonging to Franco Fazio, Gregorio’s cousin, who was
living in Calabria, Italy. LaMarca Aff., ECF No. 302-1,
¶¶ 36-37. Fazio was the subject of the separate Italian
investigation of Italian citizens and members of
‘Ndrangheta. Id. ¶ 37.
On June 30, 2014, U.S. law enforcement secured a
wiretap warrant for the Restaurant Phone. The affidavit in support of the warrant request stated “the
United States and Italy are not conducting a joint investigation, only merely sharing on a voluntary basis
certain relevant information. Accordingly, Your affiant
is not privy to all the details of the [Italian authorities’]
ongoing investigation.” Id. ¶ 15. The affidavit also
noted, by way of background, that “[s]ince at least
2008, United States law enforcement agencies . . . have
coordinated and exchanged information with the Italian Justice Ministry, the Italian National (Anti-Mafia)
constitutional protections, but rather to advance an independent
Italian investigation. Recent developments in the Italian prosecutions do not suggest otherwise. Though a number of convictions
arising out of the ‘Ndrangheta investigations were recently overturned on appeal, contrary to defense counsel’s speculation that
“the reversal arose from the joint investigation with United
States officials or the wiretapping in particular,” ECF No. 312, at
3, “the convictions were overturned on jurisdictional, not substantive, grounds,” ECF No. 313, and thus these developments have
no bearing on the Court’s Rule 33 decision. See Court of Appeals
of Reggio Calabria Ruling (April 3, 2019), ECF No. 313-1-2 (finding “the Court of Palmi has no territorial jurisdiction,” ordering
the transfer of the case “documents to the Public Prosecutor at
the Court of Catanzaro” and declaring “the decision applied to
[the defendants] to be null and void”).

App. 23
Police, and other agencies, relative to on-going criminal
activities of members of the ‘Ndrangheta operating in
the United States, Italy and elsewhere.” Id.
The conversations intercepted as a result of the
FBI’s Cucino Amodo Mio wiretap ultimately led to the
recovery of kilogram quantities of cocaine in October
and December 2014 from boxes imported from Costa
Rica to Delaware and belonging to Gregorio’s yucca importation company, as well as evidence seized pursuant
to a search warrant at Cucino Amodo Mio. The search
of Cucino Amodo Mio was conducted the same day Gregorio and Angelo were arrested.
B. Angelo’s Arrest and Relevant Pre-Trial
Proceedings.
Angelo was arrested on March, 11, 2015 and
charged in a criminal complaint with conspiracy to import cocaine. ECF No. 1. On April 22, 2015 Angelo was
indicted on one count of conspiracy to import cocaine.
ECF No. 45. A superseding indictment filed on May 6,
2015 added five more counts, including importation of
cocaine, conspiracy to possess cocaine with the intent
to distribute it and possession of firearms. ECF No. 51.
On August 19, 2015, Angelo and Gregorio filed
joint pretrial motions seeking, inter alia, an order directing the government to provide additional information about the nature of its cooperation with Italian
authorities and suppressing evidence obtained from
the FBI wiretap on the Restaurant Phone because the
wiretap was not supported by probable cause. ECF No.

App. 24
76. During oral argument on the motions, the Court
requested further information from the government
regarding cooperation with Italian authorities. Thereafter, this Court entered an Order denying the motion
to suppress the Cucino Amodo Mio wiretap and concluding that where (i) four FBI confidential informants
“all told virtually the same story” and corroborated the
theory that Gregorio operated his cocaine distribution
operation from his restaurant, (ii) U.S. federal agent
surveillance of Cucino Amodo Mio and the adjacent social club also “supported at least some of the information provided” by the FBI informants and (iii) an
Italian intercept of a Cucino Amodo Mio conversation
contained “coded references to cocaine sales,” there
was a “substantial basis” to justify the FBI wiretap
of the Restaurant Phone. United States v. Gigliotti,
145 F. Supp. 3d 203 (E.D.N.Y. 2015).
On November 23, 2015, the government filed a
supplemental response again acknowledging that the
United States and Italy had been engaged in cooperative law enforcement efforts for many years in order to
target drug traffickers and members of the ‘Ndrangheta in the United States and Italy. ECF No. 109. The
government claimed that “information obtained from
Italian law enforcement, while clearly useful and supportive of the American investigation, was the result of
appropriate and lawful information-sharing . . . not
the result of Italian law enforcement acting as agents
of the United States in an effort to circumvent due process of the Constitution.” Id. The government specifically explained that the United States did not provide

App. 25
Italian law enforcement with any wiretapping assistance. Id. Angelo responded on December 10, 2015,
ECF No. 11, and the government filed another response
on December 18, 2015, ECF No. 113. On January 8,
2016, this Court denied Angelo’s motion for additional
discovery relating to the nature of cooperation between
Italian and American law enforcement agencies, stating “additional discovery is not warranted and no valid
basis for an exploratory hearing has been established.”
Jan. 8, 2016 Order.
On March 24, 2016 new counsel for Angelo filed
supplemental pretrial motions, once again seeking to
suppress evidence from the FBI wiretap on the Restaurant Phone because (i) the warrant used to obtain the
FBI wiretap was misleading under Franks v. Delaware, 438 U.S. 154 (1978), and (ii) the warrant was obtained pursuant to improper collaboration between the
United States and Italian law enforcement in violation
of Maturo. ECF No. 138. This Court denied Angelo’s
supplemental motion to suppress, noting they were “in
large part, simply an attempt to re-litigate matters already decided.” United States v. Gigliotti, 2016 WL
3647618 (E.D.N.Y. June 30, 2016).
C. Trial
A two-week trial began on July 13, 2016. On July
22, 2016 a jury convicted Angelo on all charges except
one—being a felon in possession of firearms. At trial
the government presented evidence in the form of numerous telephone conversations from the FBI wiretap,

App. 26
sometimes spoken in code, discussing drug purchasing and drug smuggling, as well as evidence of the seizure of 55 kilograms of cocaine stored in yucca boxes
shipped from Costa Rica and bound for Angelo and his
father’s import/export company, Fresh Farm Produce
Corporation. The government also presented evidence
from a search of Cucino Amodo Mio, including multiple
firearms, two holsters, ammunition and a drug ledger.
D. Relevant Post-Trial Proceedings
After trial, Angelo moved for a judgment of acquittal under Federal Rule of Criminal Procedure 29 and
for a new trial under Federal Rule of Criminal Procedure 33. At sentencing, this Court denied Angelo’s
post-trial motions and sentenced him to the statutory
mandatory minimum-20 years’ imprisonment. A notice
of appeal followed.2
Angelo now files his second motion for a new trial
pursuant to Federal Rule of Criminal Procedure 33.
Angelo contends that around the time of his sentencing, he obtained Italian court documents relating to an
investigation of ‘Ndrangheta and including investigative leads into the Gigliotti family. The timing and
manner in which Angelo obtained these “new” documents is notably vague. With little elaboration, Angelo
2

Before filing this motion, Angelo moved to remand the case
from the Second Circuit. His motion was denied without prejudice
as premature because (i) the case did not need to be remanded in
order to file the instant motion and (ii) the appeal could be held
in abeyance pending the resolution of this motion. 2d Cir. Case
No. 17-2166 (ECF No. 76).

App. 27
claims this information makes clear that there was an
improper “joint” Italian and American investigation
and constitutes “newly discovered evidence” entitling
him to a new trial. He asserts that probable cause for
the FBI’s Cucino Amodo Mio wiretap would not have
been secured but for the unlawful coordination between Italian and American law enforcement and thus
maintains that the evidence obtained as a result of
that FBI wiretap was fruit of the poisonous tree and
should have been suppressed. Then, because Angelo argues he would not have been convicted without the evidence obtained as a result of the FBI wiretap, he
claims he suffered prejudice warranting a new trial.
Though styled as a Rule 33 motion, Angelo’s motion is more appropriately construed as a motion to
suppress under Federal Rule of Criminal Procedure
12(b)(3), which is subject to waiver if not raised pretrial absent “a showing of cause and prejudice.” United
States v. Crowley, 236 F.3d 104, 110 n.8 (2d Cir. 2000).
Accordingly, the appropriate analysis is (i) whether Angelo has shown sufficient cause for his failure to introduce his new evidence at the time he originally filed
his suppression motion, and (ii) whether Angelo would
be prejudiced if he were not permitted to reopen his
suppression motion. United States v. Archambault,
2016 WL 3546022, at *3-4 (W.D.N.Y. May 10, 2016); see
also United States v. Vinas, 910 F.3d 52 (2d Cir. 2018).
Even assuming Angelo could establish good cause
for failing to introduce these Italian documents pretrial, for the reasons set forth below the Court readily
concludes there is no Maturo violation and therefore

App. 28
Angelo will suffer no prejudice if he is not permitted to
reopen his suppression motion. As a result, he is not
entitled to a new suppression hearing or to a new
trial.3
LEGAL STANDARDS
A. Federal Rules of Criminal Procedure
12(b)(3) and 33
Rule 33 allows the Court to “vacate any judgment
and grant a new trial if the interest of justice so requires.” Fed. R. Crim. P. 33(a). Before granting a Rule
33 motion, the district court must have “a real concern
that an innocent person may have been convicted,” and
should only grant such a motion “with great caution
3

Moreover, though not addressed by the parties, the Court
notes that even if there were substance to Defendant’s Maturo
claim the FBI wiretap evidence would nevertheless be admissible
pursuant to the inevitable discovery doctrine. The doctrine allows
evidence obtained as the result of an illegal search to be introduced if “the prosecution can establish by a preponderance of the
evidence that the information ultimately or inevitably would have
been discovered by lawful means.” Nix v. Williams, 467 U.S. 431,
444 (1984); see also United States v. Moreno, 2009 WL 454548, at
*7 n.7 (E.D.N.Y. Feb. 24, 2009). Here, probable cause supporting
the FBI’s wiretap warrant was based principally on information
obtained by four FBI confidential informants, in part based on the
observations of ICE and DEA strike force agents, and finally on
an Italian intercept of the Restaurant Phone. The combination of
corroborated information from four different FBI confidential informants, as well as the observations of various federal agents
compel the conclusion that a wiretap of the Restaurant Phone
would likely lead to evidence of a crime. Accordingly, there were
sufficient factual bases to establish probable cause even absent
the intercept from Italian authorities.

App. 29
and in the most extraordinary circumstances.” United
States v. Sanchez, 969 F.2d 1409, 1414 (2d Cir. 1992).
Rule 33 is an uncomfortable fit for defendant’s motion.
Angelo does not argue that some new piece of evidence
would exonerate him, or would impeach a “witness of
assumed moral rectitude whose collapse from virtue
might destroy the foundation of the prosecution’s case.”
United States v. Rosner, 516 F.2d 269, 275 (2d Cir.
1975). Instead, Angelo claims that “new” evidence indicates the FBI wiretap evidence should have been suppressed because it was the result of an illegal “joint”
investigation between Italian and American law enforcement authorities. Therefore, Angelo argues, he is
entitled to a new trial “at which the jury could not consider allegedly illegally-obtained evidence.” Archambault, 2016 WL 3546022, at *3. Such a motion relates
to the suppression of evidence pre-trial—an issue typically raised under Rule 12(b)(3).4
The object of a Rule 12 motion is to give the Court
an opportunity to rule on alleged procedural deficiencies
4

A Rule 33 motion relating to new evidence requires the evidence be “newly discovered” not “newly available.” United States
v. Owen, 500 F.3d 83, 90 (2d Cir. 2007). Evidence that is “newly
available,” but that the defendant was “aware of prior to trial is
not sufficient. Id. (“One does not ‘discover’ evidence after trial that
one was aware of prior to trial”). Angelo was concededly “aware of
evidence of an Italian law enforcement investigation and various
readily acknowledged coordination efforts between Italian and
American law enforcement agencies pre-trial even if he was not
aware of the precise contents or volume of the Italian records.
Even if Angelo’s motion was evaluated under the Rule 33 standard, he would be unable to satisfy the threshold issue: that the
evidence was “newly discovered.”

App. 30
“without a trial on the merits.” Fed. R. Crim. P. 12(b)(3).
Rule 33 motions, on the other hand, are merits-based.
Rule 12(b)(3) thus requires criminal defendants file
motions to suppress evidence pre-trial, “if the basis for
the motion is then reasonably available.” Id. Such motions are waived unless timely filed prior to trial; however, “a court may consider” an untimely motion and
reopen a suppression hearing “if the party shows good
cause”—in other words, “cause and prejudice.” Fed. R.
Crim. P. 12(c)(3); Crowley, 236 F.3d 104, 110 n.8. Here,
Angelo seeks to reopen his suppression hearing because in light of “newly available” evidence Maturo
compels (i) suppression of the FBI’s Cucino Amodo
Mio wiretap and (ii) a new trial absent that wiretap
evidence. Although Angelo brings a proper Rule 33 motion, the analysis is more comfortably performed pursuant to Rule 12(b)(3).
B. Suppression of Evidence under United
States v. Maturo
In United States v. Maturo, the Second Circuit
articulated a standard for determining whether evidence obtained in a foreign jurisdiction and subsequently provided to American authorities should be
excluded. Although it is “well-established that the
Fourth Amendment’s exclusionary rule . . . generally
does not apply to evidence obtained by searches abroad
conducted by foreign officials,” United States v. Lee,
723 F.3d 134, 139 (2d Cir. 2013), evidence may be excluded where (i) the conduct of foreign officials in acquiring the evidence “shock[s] the judicial conscience”

App. 31
or (ii) “cooperation with foreign law enforcement officials may implicate constitutional restrictions,” Maturo, 982 F.2d at 60-61; see also United States v. Getto,
729 F.3d 221, 224 (2d Cir. 2013) (holding that “ongoing
collaboration between an American law enforcement
agency and its foreign counterpart in the course of parallel investigations does not—without American control, direction, or an intent to evade the Constitution—
give rise to a relationship sufficient to apply the exclusionary rule”).
With respect to the first category, “circumstances
that will shock the conscience are limited to conduct
that not only violates U.S. notions of due process, but
also violates fundamental international norms of decency.” United States v. Vilar, 2007 WL 1075041, at *54
(E.D.N.Y. Apr. 4, 2007) (citing United States v. Mitro,
880 F.2d 1480, 1483-84 (1st Cir. 1989)); see also Getto,
729 F.3d at 229 (“conduct did not shock the judicial conscience when, for example, there was no act of torture,
terror or custodial interrogation of any kind”). “Within
the second category for excluding evidence, constitutional requirements may attach in two situations: (i)
where the conduct of foreign law enforcement officials
rendered them agents, or virtual agents, of United
States law enforcement officials; or (ii) where the cooperation between the United States and foreign law enforcement agencies is designed to evade constitutional
requirements applicable to American officials.” Maturo, 982 F.2d at 61.
Whether a foreign official is acting as an “agent”
or “virtual agent” or whether cooperation is merely a

App. 32
pretext to circumvent the Constitution is necessarily
a fact specific inquiry. For example, evidence suggesting shared information is used in furtherance of a
sovereign’s “own independent investigation,” militates
against a finding of agency. Id. at 61. Moreover, where
a defendant seeks to suppress evidence on the basis
that improper foreign cooperation undermined probable cause, the relevant consideration within the
Maturo framework is reliability and “whether the information [U.S. officials] obtained by monitoring a foreign wiretap was sufficiently reliable to support a later
finding of probable cause to arrest the defendant.”
Moreno, 2009 WL 454548, at *6 (emphasis added). On
the other hand, if a U.S. law enforcement agency requests a foreign agency secure specific evidence and
takes steps to assist that foreign agency in doing so,
such a relationship may require exclusion. In exercising its discretion under Maturo, the Court must bear
in mind that criminal activity and criminal investigations are taking on increasingly global dimensions. As
a result, “the investigation of crime increasingly requires the cooperation of foreign and United States law
enforcement officials, but there is no reason to think
that Congress expected that such cooperation would
constitute the foreign officials as agents of the United
States.” Maturo, 982 F.2d at 61 (citing United States
v. Molina-Chacon, 627 F. Supp. 1253, 1260 (E.D.N.Y.
1986) (foreign search prompted by information supplied by U.S. official does not trigger Fourth Amendment requirements)).

App. 33
DISCUSSION
A. There is No Maturo Violation
Even assuming Angelo’s failure to obtain Italian
court documents pre-trial was justified, he is nevertheless unable to establish any Maturo violation lurking between the hundreds of pages of Italian court
documents supplied to the Court, and is thus unable to
demonstrate any prejudice. Nowhere does Angelo claim
conduct by Italian officials “so extreme that they shock
the judicial conscience,” and his plainly conclusory argument that Italian officials were instead operating
as agents in order to circumvent constitutional requirements is without merit: the evidence reveals two
independent investigations, conducted by two independent sovereigns, who, in light of myriad commonalities shared pertinent information—as they should.
See, e.g., United States v. Morrow, 537 F.2d 120, 140
(5th Cir. 1976) (“Normal lines of communication between law enforcement agencies of different countries
are beneficial without question and are to be encouraged”).
First, the Italian documents do not even suggest
that the conduct of Italian law enforcement officials
rendered them agents, or virtual agents of United
State law enforcement officials. “In order to render foreign law enforcement virtual agents of the United
States, American officials must play some role in controlling or directing the conduct of the foreign parallel
investigation.” Getto, 729 F.3d at 230. Indeed, if the
purpose behind the exclusionary rule is to “inculcate a

App. 34
respect for the Constitution in police of [the United
States]” then if “American law enforcement agents do
not have authority to control or direct an investigation abroad, application of the exclusionary rule to the
fruits of the investigation would serve no deterrence
purpose.” Id. at 231.
Though there were undoubtedly recurring communications between Italian and American law enforcement
officials, they were designed to serve independent investigations focused on common individuals or enterprises, and there is simply no evidence that suggests
that U.S. officials sought to control or direct an Italian
investigation to serve American ends. The Italian intercept of the Cucino Amodo Mio conversation, which
was provided to U.S. law enforcement and ultimately
used in part to establish probable cause for an American wiretap of the same telephone line, was initially
collected as part of an independent Italian investigation into ‘Ndrangheta drug trafficking between South
America and Italy using New York as a “bridge.” And,
by the time the Italian intercept was provided to American authorities, U.S. law enforcement had been monitoring and investigating the Gigliotti family and its
associates for at least six years. The LaMarca Affidavit
describes the nature of the Italian investigation with
respect to the Restaurant Phone:
As noted above, members of Italian law enforcement are present[ly] engaged in electronic surveillance of citizens believed to be
engaged with the ‘Ndrangheta and the distribution of narcotics. Although one of those

App. 35
wiretaps has led to the interception of a pertinent call over the [Restaurant Phone], the
goals and objectives, and even the targets of
the American and Italian investigations are
quite different. The two countries are not running a joint investigation but merely sharing
information with each other when appropriate. The objectives of this investigation, which
focuses on American citizens or residents engaged in the violation of federal drug laws
cannot be met by relying on the happenstance
of possible future interceptions of the [Restaurant Phone] overseas, nor is the interception
of such communications certain to be deemed
admissible in a United States courtroom.
LaMarca Aff., ECF No. 302-1, ¶ 66.
Moreover, the newly acquired Italian documents
do not suggest there is anything wrong or misleading
with LaMarca’s sworn statement. Instead, they explain that there are “advantageous coordination activities” with American law enforcement designed
to “ma[k]e it possible to detect connections between
gangs present on the Calabrian Territory (Ionic Coast)
and people belonging to the Gambino family of New
York.” Def. Br., ECF No. 302, at 28. For example, the
Italian documents state Lupoi Franco, a target of
American investigative activities, maintained contact
with certain ‘Ndrangheta representatives and as a result, the Italian authorities “authorized the tapping of
mobile and fixed telephone numbers traceable to Lupoi
Franco, of his closest relatives and of characters who
are part of his business.” Ex. N, ECF No. 302-14. These

App. 36
efforts allowed Italian authorities to uncover a narcotics trafficking operation between South America and
Italy and led to subsequent investigations of Gregorio
and Franco Fazio, revealing that Gregorio, through
Fazio, had “a series of contacts with Calabrian individuals interested in the purchase of large quantities of
cocaine” and that “from the start of the investigation
carried out on [Gregorio] showed how he usually uses
the American telephone number . . . belonging to his
New York restaurant ‘Cucino a Modo Mio.’ ” Id. (emphasis added).
The Italian documents do not refer to any control or direction by U.S. law enforcement. The Italians
did not intercept the Restaurant Phone. Instead, an
Italian wiretap on Franco Fazio’s Italian telephone
number—related to an independent Italian investigation into the New York City “bridge” between a
South America-Italy narcotic trafficking operation—
captured conversations on the Restaurant Phone. A
narcotic trafficking operation of global dimensions,
such as the one described in the Italian documents,
necessarily requires the work, assistance and cooperation of law enforcement officials from multiple countries. However, what the Italian court documents do
not suggest is that this was anything more than a series of cooperative efforts designed to serve the goals of
independent investigations conducted by independent
sovereigns. Indeed, “[d]efendant’s allegations, even if
credited, demonstrate only robust information-sharing
and cooperation across parallel investigations and
do not contradict the government’s claim that the

App. 37
[Italian] investigation was not controlled or directed by
American law enforcement.” Getto, 729 F.3d at 231.
Second, the Italian documents do not indicate
that at any point the cooperative activities between
the United States and Italy were merely a pretext to
“evade constitutional requirements applicable to American officials.” This argument necessarily requires
“some intent to evade American constitutional requirements.” Id. at 232 (emphasis added). Intent to circumvent the Constitution arises, for example, in an
overseas interrogation where U.S. officials use foreign
officials as interrogation agents with the intent to circumvent the requirements of Miranda. United States
v. Yousef, 327 F.3d 56, 146 (2d Cir. 2003).
Here, the communication and information-sharing
between the United States and Italy do not demonstrate there was a “joint investigation” designed to
evade the Constitution. To the contrary, the Italian
documents indicate there was an independent Italian
investigation into a South America-Italy drug trafficking operation, over the course of which, Italian officials
identified Gregorio, Angelo’s father, as a person of interest. In July 2014, Italian officials provided this information to American law enforcement. By that time,
and since 2008, American law enforcement officials
were already monitoring Gregorio based on information provided by various cooperators and FBI confidential informants that he was involved in a cocaine
trafficking operation based in part out of his restaurant, Cucino Amodo Mio. By the time American law
enforcement obtained the Italian intercept of the

App. 38
Restaurant Phone, there were, plainly, two independent investigations. The Italian intercept of the Restaurant Phone was thus secured pursuant to Italian law
enforcement’s own investigative objectives, not part of
some illicit plan to evade constitutional requirements.
The fact that Italian law enforcement then shared the
intercept with American law enforcement only reveals
“successful coordinated law enforcement activity,” and
nothing more. Getto, 729 F.3d at 233.
CONCLUSION
For the reasons stated above, Angelo’s Rule 33 motion, which this Court analyzes as a Rule 12(b)(3) motion, is denied. There is no Maturo violation and thus
Angelo has not established he has suffered any prejudice warranting a new suppression hearing or a new
trial.
SO ORDERED.
Dated: Brooklyn New York
May 15, 2019
s/ Raymond J. Dearie
RAYMOND J. DEARIE
United States District Judge

App. 39
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------x
UNITED STATES
MEMORANDUM
OF AMERICA,
OF DECISION
- against 15 CR 204 (RJD) (RER)
ANGELO GIGLIOTTI and
(Filed Nov. 16, 2016)
GREGORIO GIGLIOTTI,
Defendants.
----------------------------------------x
DEARIE, District Judge:
Defendants Gregorio Gigliotti and Angelo Gigliotti
were each convicted of multiple criminal counts on
July 22, 2016, following a roughly two-week jury trial.
Prior to the close of jury selection, the government
raised an objection pursuant to Batson v. Kentucky,
476 U.S. 79 (1986), arguing that defendants had exercised peremptory challenges based on gender. After
reviewing the record and defense counsel’s proffered
explanations for their challenges, this Court disallowed two of defendants’ peremptory strikes and reinstated the two previously-dismissed jurors. The Court
briefly explained its rationale for doing so at that time,
but promised a memorandum of decision to follow.

App. 40
BACKGROUND1
Jury selection began on July 11, 2016. After the
Court qualified twenty-eight potential jurors—fifteen
women and thirteen men—the parties each exercised
their peremptory challenges. The government exercised six peremptory challenges, while the defendants,
jointly, exercised ten. The Court then seated the twelve
remaining jurors and proceeded with the selection of
alternate jurors.
Midway through the selection of alternates, the
government raised a Batson challenge. The government noted that when the panel was seated, it had noticed that only one of the twelve jurors was a man. This
had prompted the government to review the parties’
peremptory challenges and discover that all ten of the
individuals struck by the defense were men.2 The government argued, and the Court agreed, that this clear
pattern constituted a prima facie showing that defendants had improperly exercised peremptory challenges
based on gender.
Once the selection of the alternate jurors was complete and the jury was excused for the day, the Court
called upon defense counsel to tender neutral explanations for their peremptory challenges. The Court asked
1

The Court here provides a summary of only the factual
background relevant to this decision, as the broader factual background of this case has been outlined in some detail previously.
See Mem. & Order, June 30, 2016, ECF No. 164; Mem. & Order,
Nov. 6, 2015, ECF No. 104.
2
The government, for its part, used two of its six peremptory
challenges against men.

App. 41
defense counsel to discuss each challenge in turn, and
counsel proffered a range of explanations—some more
credible than others—for their decisions. Defense
counsel also represented, emphatically, that there had
been no prior discussion or understanding arrived at
between defense counsel regarding the striking of male
jurors. The government was invited to participate in
the discussion, and it provided input at various points.
Reviewing each challenged juror in turn,3 defense
counsel proffered the following explanations for their
decision to strike:4

3

•

Juror 2: The juror appeared to be very “corporate,” had an analytics background, had
previously been on a civil jury, had a brother
who was an intellectual property lawyer, and
had a sister-in-law who was a lawyer.5

•

Juror 3: The juror served on a jury that went
to verdict, had a pronounced Spanish accent,
and had a background in law enforcement.6

The Court here refers to each juror by his or her number on
the pre-peremptory challenge pool of twenty-eight, rather than
his or her number on the post-peremptory challenge panel of
twelve.
4
A more thorough review of the prospective jurors’ answers
during voir dire, as well as defense counsel’s proffered explanations for their ten peremptory challenges, is provided in the Appendix to this decision.
5
The record, however, shows that Juror 2 made no mention
of any such sister-in-law.
6
The record, however, shows that Juror 3 made no mention
of having a law enforcement background or ties to law enforcement.

App. 42

7

•

Juror 4: Defense counsel struck the juror
based on a “gut” instinct because the juror
looked angry and unhappy to be there.

•

Juror 12: The juror had a father-in-law who
was a police officer, and the juror was required
to return to work within two weeks.

•

Juror 15: The juror had two brothers in the
New York City Police Department (“NYPD”)
and a brother-in-law at the United States Department of Homeland Security (“DHS”).7

•

Juror 16: Defense counsel struck the juror
based on a “gut” instinct and discussion with
their clients.

•

Juror 18: The juror had friends and relatives currently or formerly in the NYPD, and
the juror’s son was then interning at a sheriff ’s department.

•

Juror 20: The juror’s mother worked at a
bank that had been robbed, and the juror reported problems regarding his upcoming
schedule.8

•

Juror 21: The juror had a sister-in-law in
the NYPD and a very strong Eastern European accent.

The record shows that Juror 15 stated that the individual
who is now at DHS is one of the two brothers who were formerly
at the NYPD.
8
Defense counsel at one point stated her belief that the robbery was at gunpoint, but the record shows that Juror 20 made
no mention of that being the case.

App. 43
•

Juror 27: The juror stated that a civil jury
on which he had served had found a party to
be “guilty,” the juror said “I think so” when
asked whether he could be fair and impartial,
and the juror had a pronounced Spanish accent. Defense counsel also struck the juror
based on discussion with their clients.

At the conclusion of the colloquy, the Court stated
that it would take the matter under consideration. The
Court also invited the parties to provide the Court with
any further input on this matter in advance of July 13,
2016, when the trial was scheduled to begin. In particular, the Court noted that it would welcome the parties’
suggestions regarding how the Court should proceed,
as a practical matter, in the event that it were to find
certain strikes to have been impermissible. Neither
party, however, accepted the Court’s invitation.
The Court reconvened on July 13, 2016, for the
first day of trial. The Court announced that after reviewing the voir dire transcript and defense counsel’s
proffered explanations for their strikes, it found two
instances in which defense counsel’s explanations were
insufficient. Specifically, the Court found that defense
counsel had failed to offer credible, gender-neutral
explanations for their strikes of Jurors 3 and 16.9 The

9

Prior to announcing its decision, the Court inquired as to
whether the government maintained its objection. The government stated that it did, and it argued that defendants had failed
to provide neutral explanations for their strikes of Jurors 3, 12,
18, and 21.

App. 44
Court, therefore, directed that both jurors be reseated
on the jury.10
After consultation with the parties, the Court directed that the two jurors be seated in the same seats
they would have occupied had they never been struck
by the defense. The other jurors, including the alternates, were then shifted down one or two seats, as necessary, and the jury was sworn. Neither party objected
to this method of reinstating the jurors.11
DISCUSSION
Under Batson and its progeny, “a defendant in a
criminal case may not, consistent with the Constitution, exercise peremptory challenges based on gender.” United States v. Martinez, 621 F.3d 101, 103 (2d
Cir. 2010). In assessing whether such impermissible

10

Fortunately, this was still an option, as all ten jurors
struck by the defense on July 11, 2016, had been contacted following jury selection and instructed to report back to court on July
13, 2016.
11
Although not relevant to the Batson issue, there was some
minor disagreement amongst the parties regarding how to handle
the placement of one juror. The disagreement flowed from the fact
that during the selection of alternates, one of the already-seated,
non-alternate jurors announced that she could not, in fact, serve.
She was excused, and the first alternate was later moved to the
excused juror’s place. Defense counsel argued that this adjustment, which took place at the end of the day on July 11, 2016,
should be reconsidered to take into account what would have
happened at that time had Jurors 3 and 16 never been struck.
After some discussion, the Court rearranged the jurors in accordance with defense counsel’s suggested approach.

App. 45
conduct has occurred, the Court employs a three-part
burden-shifting framework:
First, the objecting party must make a prima
facie case that opposing counsel exercised a
peremptory challenge on the basis of a protected class. To establish a prima facie case of
purposeful discrimination, the objecting party
must show that the other party challenged
members of a specific group and that the totality of the circumstances raises an inference
of discriminatory motive.
Second, if a prima facie case is established,
the burden shifts to the challenged party to
present a nondiscriminatory reason for striking the jurors in question. At this stage, proffered explanations are deemed valid unless
discriminatory intent is inherent in the challenged party’s explanation. Although the challenged party must present a comprehensible
reason, the second step of this process does
not demand an explanation that is persuasive,
or even plausible; so long as the reason is not
inherently discriminatory, it suffices.
Finally, if a valid reason is articulated, the
trial court considers the totality of the circumstances to determine whether the objecting
party has carried its burden of proving purposeful discrimination by a preponderance of
the evidence.
Martinez, 621 F.3d at 108-09 (internal quotation marks
and citations omitted). Throughout this process, “the
ultimate burden of persuasion regarding [improper]

App. 46
motivation rests with, and never shifts from, the opponent of the strike.” Id. at 109 (alteration in original)
(quoting Rice v. Collins, 546 U.S. 333, 338 (2006)).
The Court readily concludes that the government
made out a prima facie case. The Second Circuit has
acknowledged that “[i]n certain circumstances, a pattern
of peremptory challenges alone may give rise to an inference of impermissible discrimination.” Martinez,
621 F.3d at 110. It has also cautioned that “[o]nly a rate
of minority challenges significantly higher than the
minority percentage of the venire would support a statistical inference of discrimination,” United States v.
Alvarado, 923 F.2d 253, 255 (2d Cir. 1991), but here,
defendants used all ten of their peremptory strikes
against men, after starting with a pool of qualified jurors that included more women than men. Such a pattern is more than enough to support an inference of
discrimination. See Miller-El v. Cockrell, 537 U.S. 322,
342 (2003) (“The prosecutors used their peremptory
strikes to exclude 91% of the eligible African-American
venire members, and only one served on petitioner’s
jury. In total, 10 of the prosecutors’ 14 peremptory
strikes were used against African-Americans. Happenstance is unlikely to produce this disparity.”); Alvarado,
923 F.2d at 256 (“We think a challenge rate nearly
twice the likely minority percentage of the venire
strongly supports a prima facie case under Batson.”).
These figures also readily distinguish this case from
others where no prima facie case was found to have
been established. See, e.g., Martinez, 621 F.3d at 11011 (concluding that the district court did not abuse its

App. 47
discretion in finding no prima facie case, but only
where (a) the government had used only four strikes in
a row against men and (b) more than half of the prospective jurors were men).
The burden thus shifted to defendants to offer
nondiscriminatory explanations for their peremptory
strikes, and defense counsel were, for the most part,
able to do so. With regard to nine of the ten jurors
struck by the defense, counsel were able to tender a
range of explanations for their challenges, including
ties to law enforcement, prior jury experience, specific
professional backgrounds, hostile demeanors, scheduling difficulties, perceived language difficulties, exposure to violent crime, or other specific answers given
during voir dire. Resolving some doubts in favor of the
defense, such explanations were sufficient, with regard
to those nine challenges, to meet defendants’ burden at
the second step of the Batson analysis.
In the case of one juror, however, defense counsel
failed to tender any meaningful explanation for their
decision to strike. Specifically, in the case of Juror 16,
counsel for Gregorio offered only the following during
the colloquy on July 11, 2016:
Part of this was just gut, Your Honor. He’s a
high school physics teacher. Really nothing
else that [stuck] out about [Juror 16]. It certainly wasn’t gender based, but I don’t have
anything to add with regard to him.

App. 48
Counsel for Angelo had little to add:
This was also [based on] discussion with client
as well. So sometimes you get client input into
these things, and I think we have to listen to
those.
“Gut” can sometimes satisfy the second step of the
Batson analysis, but only where such gut instincts flow
from some articulable basis. See Brown v. Kelly, 973
F.2d 116, 121 (2d Cir. 1992) (“An impression of the conduct and demeanor of a prospective juror during voir
dire may provide a legitimate basis for the exercise of
a peremptory challenge.”); Francis v. Duncan, No. 03cv-4959 (DC), 2004 WL 1878796, at *15 (S.D.N.Y. Aug.
23, 2004) (“[C]ourts in the Second Circuit have found
that demeanor and a ‘feeling’ that a juror is ‘not overly
forthcoming’ in answering questions satisfy the race
neutrality requirement of Batson.”); Sutton v. Berbary,
No. 02-cv-3446 (TPG), 2003 WL 22339275, at *1-2
(S.D.N.Y. Oct. 14, 2003) (finding prosecutor’s explanation that he had a “gut reaction” to a particular juror
who was “not overly cooperative” and not “overly forthcoming” when responding to questions to be satisfactory). As the Eleventh Circuit reasoned:
While the reasons given by the prosecutor
“need not rise to the level justifying exercise
of a challenge for cause,” the prosecutor must
nevertheless “give a clear and reasonably specific explanation of his legitimate reasons for
exercising the challenges.” The prosecutor’s
explanation in the present case, “I just got a
feeling about him,” obviously falls short of this

App. 49
requirement. As the Batson court concluded,
“If [such] general assertions were accepted as
rebutting a defendant’s prima facie case, the
Equal Protection Clause would be but a vain
and illusory requirement.”
United States v. Horsley, 864 F.2d 1543, 1546 (11th Cir.
1989) (alteration in original) (internal citations omitted) (quoting Batson, 476 U.S. at 97-98); see also Briggs
v. Grounds, 682 F.3d 1165, 1187 (9th Cir. 2012) (“In contrast to aspects of demeanor such as ‘nervousness’ or
‘inattention’ upon which prosecutors often rely, no
judge could discern whether a prospective juror was
giving a prosecutor a ‘warm feeling.’ ” (internal citation
omitted)); United States v. Bentley-Smith, 2 F.3d 1368,
1380 (5th Cir. 1993) (“Hostile facial expressions and
body language can be observed in the courtroom; therefore the truth or falsity of explanations of this kind is
subject to proof. In contrast, an explanation based upon
unsupported intuition is not subject to observation and
not subject to proof.” (internal quotation marks and
citation omitted) (favorably quoting the dissent)).
Indeed, defense counsel provided just such an articulable basis for their gut reaction to Juror 4, stating
that the juror “looked generally angry, not happy to be
here,” and that it “[d]idn’t seem that [the juror] was going to want to sit on this jury.” With respect to Juror
16, however, defense counsel provided no similar articulable basis for their negative gut reaction, stating
only that the juror was a high school physics teacher—
with no explanation as to how that fact might favor
striking the juror.

App. 50
Experienced practitioners and judges observe that
in the real world of jury trial practice, one’s gut or intuition sometimes plays a part. This Court recognizes
this practical dynamic and therefore proceeds with
great caution in weighing a Batson challenge, giving
as much deference to counsel as judgment and common
sense permit. But there should always be something
more than simply gut, some factor that triggers the
judgment to pursue or pass on a particular prospective
juror. With respect to Juror 16, that “something more”
does not exist. As such, defense counsel’s strike of that
juror does not survive scrutiny under Batson.12
Turning back to the other nine peremptory strikes
in question, the Court—having found defendants to
have offered gender-neutral explanations as to those
strikes—proceeds to the third step of the Batson analysis, where the Court has “the duty to determine if the
[objecting party] has established purposeful discrimination.” Batson, 476 U.S. at 98. This stage of the
analysis “requires a trial judge to make ‘an ultimate
determination on the issue of discriminatory intent
based on all the facts and circumstances,’ ” Jordan v.
Lefevre, 206 F.3d 196, 200 (2d Cir. 2000) (quoting
Alvarado, 923 F.2d at 256), and “compels courts to determine ‘the credibility of the proffered explanations.’ ”
12

The Court recognizes that shortly before it announced its
decision on this matter, the government indicated that the strike
of Juror 16 was not among the four for which it felt defense counsel’s explanations were lacking. Whatever inspired the government’s position, it does not alter the Court’s determination that
defense counsel failed to offer an acceptable, gender-neutral explanation for their strike of Juror 16.

App. 51
Barnes v. Anderson, 202 F.3d 150, 156 (2d Cir. 1999)
(quoting Alvarado, 923 F.2d at 256); see also Cockrell,
537 U.S. at 338-39 (“[T]he critical question . . . at step
three is the persuasiveness of the [challenged party’s]
justification for his peremptory strike.”). “The [Supreme] Court [has] described this duty of assessing the
credibility of the [challenged party’s gender-]neutral
reasons as embodying the ‘decisive question’ in the
Batson analysis.” Jordan, 206 F.3d at 200 (citing
Hernandez v. New York, 500 U.S. 352, 365 (1991)).
“Credibility can be measured by, among other factors, the [challenged party’s] demeanor; by how reasonable, or how improbable, the explanations are; and by
whether the proffered rationale has some basis in accepted trial strategy.” Cockrell, 537 U.S. at 339. Also
relevant are “side-by-side comparisons of some [male]
venire panelists who were struck and [female] panelists allowed to serve.” Miller-El v. Dretke, 545 U.S. 231,
241 (2005). “If a [challenged party’s] proffered reason
for striking a [male] panelist applies just as well to an
otherwise-similar [female panelist] who is permitted to
serve, that is evidence tending to prove purposeful discrimination to be considered at Batson’s third step.” Id;
see also Foster v. Chatman, 136 S. Ct. 1737, 1750
(2016) (“Still other explanations given by the prosecution, while not explicitly contradicted by the record, are
difficult to credit because the State willingly accepted
white jurors with the same traits that supposedly rendered [the black prospective juror] an unattractive juror.”).

App. 52
Giving defense counsel considerable benefit of the
doubt, the Court finds counsel’s explanations to be
credible and sufficient with respect to eight of the nine
remaining peremptory strikes. With respect to the
strike of Juror 3, however, the Court finds defense
counsel’s proffered explanations to be lacking.
During the colloquy on July 11, 2016, counsel for
Gregorio stated the following with respect to Juror 3:
[Juror] 3, had a case, I think, that went to verdict in Suffolk County, had some law enforcement background. Although we couldn’t
eliminate everybody who had brought a case
to verdict[,] I sometimes am wary of that. It
seems to me that once that happens, they are
more inclined to convict, particularly if it is a
criminal case that they’ve served in. So that’s
always a red flag for me. But other than that,
I don’t have any particular note on why we got
rid of [Juror 3].
Counsel for Angelo then added:
Juror . . . 3, what I recall is he did have a fairly
pronounced Spanish accent . . . I know that
was something that I was concerned about,
and I was thinking about.
Contrary to defense counsel’s assertion, the record
does not reflect that Juror 3 had any law enforcement
background. The government noted this during the
colloquy on July 11, 2016, and it also noted that it was
a civil jury, rather than a criminal jury, on which Juror
3 had previously served. Also, while defense counsel
offered Juror 3’s jury experience as a reason he was

App. 53
struck, the Court notes that defense counsel did not
strike Juror 5 (a male juror who had served on juries
in two murder cases, one of which reached a verdict),
Juror 11 (a female juror who had served on a civil jury,
albeit one that did not reach a verdict), Juror 13 (a female juror who had served on a grand jury), Juror 17
(a male juror who had served on a jury in a drunk driving case that reached a verdict), Juror 19 (a female juror who had served on a civil jury in a case that
settled), Juror 22 (a female juror who briefly served on
a civil jury in a case that settled), Juror 24 (a female
juror who had served on a jury as an alternate), or Juror 28 (a female juror who had served on a grand jury).
None of the female jurors had specifically served on a
jury that reached a verdict, but several of them had
previously served in some capacity, and two male jurors who were not struck had served on juries that
reached verdicts—one in a murder case, the other in a
drunk driving case.
Considering all this, the Court is simply unable to
conclude that defense counsel’s proffered reasons for
their strike of Juror 3 constitute a credible, genderneutral explanation. The Court, therefore, finds that
not only was defendants’ strike of Juror 16 improper,
but so too was their strike of Juror 3.
CONCLUSION
The foregoing, along with the Court’s remarks on
the record in open court on July 13, 2016, constitute

App. 54
the basis for the Court’s decision to sustain the Batson
challenges regarding Jurors 3 and 16.
Dated: Brooklyn, New York
November 14, 2016
s/ RJD
RAYMOND J. DEARIE
United States District Judge

App. 55
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------x
UNITED STATES
MEMORANDUM
OF AMERICA,
& ORDER
- against 15 CR 204 (RJD)
ANGELO GIGLIOTTI,
(Filed Jun. 30, 2016)
ELEONORA GIGLIOTTI,
GREGORIO GIGLIOTTI,
and FRANCO FAZIO,
Defendants.
----------------------------------------x
DEARIE, District Judge:
Defendants Gregorio Gigliotti, his wife Eleonora
Gigliotti, and their adult son Angelo Gigliotti are
charged with, inter alia, conspiracy to import and
importation of cocaine, in violation of 21 U.S.C.
§§ 952(a), 960(a)(1), 960(b)(1)(B)(ii), and 963. Indictment, ECF No. 45; Superseding Indictment, ECF No.
51; Second Superseding Indictment, ECF No. 154. Defendants submit supplemental pretrial motions seeking, inter alia, an order from the Court suppressing
evidence obtained from a wiretap on the landline telephone in Cucino Amodo Mio (the “Cucino Landline”), a
restaurant owned by Gregorio and Eleonora, because,
defendants argue, (i) the government intentionally or
recklessly misled the authorizing court with respect to
the probable cause supporting the wiretap application;
and (ii) the collaboration between United States and

App. 56
Italian law enforcement with respect to this case violated defendants’ Constitutional rights.
Defendants’ supplemental pretrial motions come
on the heels of an earlier round of pretrial motions already denied by this Court. Acknowledging that defendant Angelo Gigliotti’s present counsel joined the
case after the prior motions were briefed and argued,
and recognizing the seriousness of the charges facing
defendants, the Court indulged counsel’s request to file
additional briefing at this late juncture. Having reviewed the supplemental briefing, however, the Court
finds that these supplemental pretrial motions are, in
large part, simply an attempt to re-litigate matters already decided by this Court. Thus, for many of the
same reasons that the Court denied defendants’ initial
pretrial motions, the Court now denies defendants’
supplemental pretrial motions in their entirety.
BACKGROUND
I.

Wiretap on Cucino Landline

On June 30, 2014, the Honorable Arthur D. Spatt,
United States District Judge for the Eastern District
of New York, granted the government’s application for
authorization to intercept conversations on the Cucino
Landline. See Mem. and Order at 1-2, Nov. 6, 2015,
ECF No. 104. As partially outlined by this Court previously, see id. at 1-4, the affidavit submitted by United
States Immigration and Customs Enforcement (“ICE”)
Special Agent Daniel P. Lamarca in support of the
wiretap application, see Am. and Corrected Aff. Supp.

App. 57
Appl. Authorization Intercept Wire Communications
(“Lamarca Affidavit” or “Lamarca Aff.”), ECF No. 1371, listed, inter alia, the following sources of probable
cause for the wiretap:
•

Beginning in or about 2007, the Italian Justice
Ministry, together with Italian law enforcement
authorities, commenced an investigation into
sources of drug trafficking into Italy, including by
individuals based in New York. Lamarca Aff. ¶ 19.
Ultimately, hundreds of people were arrested
and/or indicted, both in Italy and the United
States. Id. Among those prosecuted were an Italian national living in Queens, Giulio Schirippa,
and an American co-conspirator, Christopher Castellano, who were charged in the Southern District
of New York. Id. Castellano proffered with the government, advising that in 2008 he had personally
observed his and Schirippa’s cocaine supplier
(“CI-1”) begin to meet with Gregorio. Id. ¶¶ 1921. Castellano also stated that he came to learn
that around that same time, Gregorio purchased
$50,000 worth of cocaine directly from CI-1. Id.
¶ 21. Castellano was shot and killed in 2009, while
free on bail pending disposition of his case. Id.
¶ 22.

•

CI-1 pled guilty to a narcotics-trafficking felony
charge and cooperated with the government.1 Id.
¶ 23. During this cooperation, in or about 2008, CI1 informed the government that he/she had sold
cocaine to Gregorio on numerous occasions. Id.
1

CI-1 is a foreign national and requested that his/her cooperation be taken into consideration with respect to his/her asylum
petition. Id. ¶ 23.

App. 58
¶¶ 24-25. CI-1 stated that Gregorio shipped the
drugs to Italy via an unknown commercial carrier
or shipping company. Id. ¶ 24. Eleonora would
then retrieve the drugs in Italy for distribution. Id.
CI-1 believed that Gregorio was purchasing this
cocaine through funding obtained from Anthony
Federicci—a captain in the Genovese organized
crime family of La Cosa Nostra—because he/she
had observed Gregorio and others bringing large
sums of cash to and from a social club adjacent to
Cucino Amodo Mio and owned by Federicci. Id.
¶¶ 12, 25.
•

A second confidential informant (“CI-2”), also
criminally associated with Schirippa, advised the
government that in or about mid-2008, Schirippa
owed Gregorio a large sum of money and that the
informant had once seen Schirippa make a payment of $30,000 in cash to Gregorio. Id. ¶¶ 26, 28.

•

A third confidential informant (“CI-3”)—an individual with prior narcotics criminal history cooperating in hopes of obtaining consideration with
respect to pending criminal charges—said that
in 2008 or 2009, prior to Castellano’s murder,
Gregorio complained in CI-3’s presence that Schirippa and Castellano owed Gregorio a large sum
of money for a shipment of cocaine to Italy that
they claimed was of poor quality and un-sellable.
Id. ¶ 29. Gregorio had further stated that the
source of the money for the cocaine was Anthony
Romanello, a subordinate of Federicci. Id. ¶¶ 12,
29.

•

In November 2011, ICE and United States Drug
Enforcement Administration (“DEA”) agents

App. 59
conducted visual surveillance of Cucino Amodo
Mio and the adjacent social club. Id. ¶¶ 30-32. On
November 9, 2011, the agents observed Gregorio
meeting with a Hispanic male, “John Doe 1” (later
identified in a collateral investigation as a cocaine
supplier), inside a nearby restaurant owned by
Federicci. Id. ¶ 30. On November 10, 2011, agents
observed Gregorio with John Doe 1 and two other
Hispanic males, “John Doe 2” and “John Doe 3,” entering and exiting Cucino Amodo Mio and the adjacent social club. Id. ¶ 31. And on the morning of
November 11, 2011, an agent observed Gregorio
conversing with John Doe 1 in front of the social
club. Id. ¶ 32. On the night of November 11, 2011,
agents observed John Doe 2 and John Doe 3 drive
up to the social club. Id. When the agents later
stopped the vehicle for a speeding violation, they
found over $500,000 inside a hidden compartment
built into the vehicle. Id. A fourth confidential informant (“CI-4”)—an individual of undescribed
background—had previously advised the government that Gregorio had approximately 14 kilograms of cocaine, which at that time would have
been worth approximately $500,000, hidden in a
safe at Cucino Amodo Mio. Id. ¶ 33.
•

On November 21, 2011, agents consensually monitored an unrecorded phone call between CI-4 and
Gregorio. Id. During this call, agents overheard
Gregorio telling CI-4 about an attempted break-in
at Cucino Amodo Mio. Id. Gregorio indicated during the call that he possessed surveillance video
of the break-in attempt, and that “people from
Mexico” were curious to find out any news about
the video. Id. Gregorio also stated that “my people
are hungry and there’s no food.” Id. The agents

App. 60
believed these comments to be coded references to
Gregorio’s efforts to determine who had attempted
to steal the cocaine then stored at Cucino Amodo
Mio and to the need to resolve the matter because
Gregorio’s cocaine customers were in need of resupply. Id.
•

In or about 2013, Gregorio stated in a conversation
witnessed by CI-3 that he and Angelo were looking
for new distribution partners in Italy. Id. ¶ 34.
Gregorio stated that he had developed a reliable
method of smuggling cocaine from New York to
Italy and that he was seeking to make a shipment
of as many as 50 kilograms. Id. Gigliotti further
stated that he wished to deal directly with Schirippa’s cocaine buyer and distributor in Italy. Id.

•

In or about February 2014, Gregorio stated in the
presence of CI-3 that he had recently travelled to
Italy in search of buyers for a shipment of 10 kilograms of cocaine. Id. ¶ 35. Gregorio stated that he
had managed to sell only 7 of the 10 kilograms for
an unspecified sum above $40,000 per kilogram.
Id. Gregorio indicated that he was unhappy with
that price, and he stated that he had left the remaining 3 kilograms of cocaine with his “cousin,”
who was charged with the task of finding better
offers. Id. Around the same time, Gregorio and Angelo discussed in CI-3’s presence their intention to
send between 50 and 100 kilograms of cocaine to
Italy that summer. Id. ¶¶ 43, 46.

•

On May 6, 2014, Italian authorities provided the
Federal Bureau of Investigation (“FBI”) and ICE
with an intercept of an April 15, 2014, call between an Italian telephone number being used by

App. 61
co-defendant Franco Fazio, Gregorio’s cousin, and
the Cucino Landline (the “Oil Conversation”). Id.
¶ 37. The call was intercepted by the Italian National Police (“INP”) as part of an ongoing narcotics trafficking investigation of Italian citizens and
members of the ‘Ndrangheta, a powerful international crime syndicate that originated in Italy. Id.
¶¶ 18, 37. On the call, Gregorio asks Fazio, “Has
all the oil been given to my buddy?” Id. ¶ 37. When
Fazio replies yes, Gregorio responds, “Okay, thirtyone, all right. . . .” Id. Agent Lamarca believed that
“oil” was code for cocaine and that “thirty-one” was
the price per kilogram of cocaine, in thousands of
dollars. Id. ¶ 38.
•

Agent Lamarca was advised by a member of the
INP that in June 2014 (the affidavit does not provide a specific date), at 11:07 a.m. EDT, Italian law
enforcement intercepted a call between Fazio and
an Italian public pay phone being used by an individual identified only as “Agostino” (the “Agostino
Conversation”). Id. ¶ 44. During that conversation,
Agostino allegedly asked Fazio, in sum and substance, whether he and his cousin were “ready for
work.” Id. Fazio allegedly responded, in sum and
substance, that everything was ready to go and
that his cousin was scheduled to travel to Italy
soon. Id. Agent Lamarca stated that he had been
advised by the INP agent and a FBI special agent
fluent in Italian that the phrase “ready for work”
is a commonly-used code in Italian drug trafficking. Id. Agent Lamarca and his colleagues in Italy
and the FBI believed that the conversation was a
coded reference to a planned meeting between
Fazio, Gigliotti, and Agostino in Italy at the end of

App. 62
June 2014, at which they intended to consummate
a cocaine trafficking transaction. Id.
The Lamarca Affidavit also discussed toll records
for the Cucino Landline, collected pursuant to a grand
jury subpoena, and the results of a pen register authorized by the Honorable Judge Marilyn D. Go, United
States Magistrate Judge for the Eastern District of
New York, on April 30, 2014. Id. ¶¶ 39-47. Those records
allegedly revealed the following:
•

In May 2014, the Cucino Landline repeatedly contacted a telephone number whose user was unknown, but which was in regular contact with a
purported avocado importation business that was
the subject of a Department of Homeland Security
(“DHS”) narcotics investigation. Id. ¶ 40.

•

On May 29, 2014, the Cucino Landline was in communication with a telephone number registered to
a business owned and/or controlled by, according
to CI-3, a member or affiliate of the ‘Ndrangheta
who had been involved in the importation of narcotics into the United States since the 1980s. Id.
¶ 41.

•

During May and June 2014, spikes in call traffic
between the Cucino Landline and telephone numbers associated with Fazio and Angelo correlated
with numerous calls from the Cucino Landline to
a number subscribed to a New Jersey company
known as DPG Foods, Inc. (“DPG”), which appeared to do no advertising of any services it may
offer. Id. ¶¶ 42, 45.

App. 63
•

Through June 7, 2014, the Cucino Landline repeatedly contacted a Flushing, New York customs
brokerage and freight forwarding business that
operated under a variety of names. Id. ¶ 46. Agent
Lamarca believed that those calls related to defendants’ narcotics trafficking activities. Id.

•

The Cucino Landline repeatedly contacted a variety of telephone numbers based in Costa Rica. Id.
¶ 47. Agent Lamarca represented that Costa Rica,
among other countries in the area, is a hub for narcotics trafficking into the United States. Id. Agent
Lamarca also noted that Gregorio and Eleonora
both had multiple border crossings into Costa
Rica, sometimes staying in the country for only a
few days. Id.

In the “Prior Applications” section, the Lamarca
Affidavit stated that a search of the FBI, DEA, and
DHS databases revealed that there had been no prior
applications for wire, oral, or electronic surveillance
of the Cucino Landline. Id. ¶15.2 The affidavit noted,
however, that since at least 2008, United States law
enforcement has coordinated and exchanged information with the Italian Justice Ministry, the INP, and
others, regarding the ongoing criminal activities of the
2

The affidavit did note that Gregorio and Angelo were both
named in two wiretap applications authorized by judges in the
Southern District of New York in 2012. Id. ¶¶ 16-17, 49-52. Agent
Lamarca represented, however, that (a) some of the calls intercepted pursuant to the first wiretap may not have been properly
minimized—and, as a result, none of those interceptions were
used in support of the investigation of this case—and (b) no pertinent calls were intercepted pursuant to the second wiretap. Id.
¶ 49-52.

App. 64
‘Ndrangheta. Id. The affidavit stated that in or about
April 2014, Agent Lamarca learned that the Italian
Justice Ministry had authorized electronic surveillance of an Italian cellular telephone used by Fazio. Id.
Agent Lamarca stated that to his knowledge, the INP
continued to monitor that telephone, but he stated that
“the United States and Italy are not conducting a joint
investigation, only merely sharing on a voluntary basis
certain relevant information.” Id. “Accordingly,” he
stated, he was “not privy to all the details of the INP’s
on-going investigation.” Id. Later in the affidavit,
Agent Lamarca stated the following:
As noted above, members of Italian law enforcement are present[ly] engaged in the electronic surveillance of citizens believed to be
engaged with the ‘Ndrangheta and the distribution of narcotics. Although one of those
wiretaps has led to the interception of a pertinent call over the [Cucino Landline], the goals
and objectives, and even the targets of the
American and Italian investigations are quite
different. The two countries are not running a
joint investigation but merely sharing information with each other when appropriate.
The objectives of this investigation, which focuses on American citizens or residents engaged in the violation of federal drug laws
cannot be met by relying on the happenstance
of possible future interceptions of the [Cucino
Landline] overseas, nor is the interception of
such communications certain to be deemed
admissible in a United States courtroom.
Id. ¶ 66.

App. 65
II.

Prior Motions

Gregorio, Eleonora, and Angelo were indicted on
April 22, 2015, on one count of conspiracy to import
cocaine. ECF No. 45. A superseding indictment filed on
May 6, 2015, added Fazio as a fourth defendant, as
well as five more counts, including two counts of importation of cocaine, one count of conspiracy to possess
cocaine with the intent to distribute, one count of attempted possession of cocaine, and one count of unlawful use and possession of firearms. ECF No. 51. A
second superseding indictment filed on May 26, 2016,
added one count of possession of a defaced firearm
against Gregorio, and one count of being a felon in possession of firearms against Angelo. ECF No. 154.
On August 19, 2015, Gregorio, Eleonora, and Angelo
filed joint pretrial motions, seeking, inter alia, an order
from the Court (a) suppressing evidence obtained from
the wiretap on the Cucino Landline because the wiretap was not supported by probable cause; and (b) directing the government to provide additional discovery
regarding the nature of its cooperation with Italian authorities. Mem. Law Supp. Pretrial Mots. (“Defs.’ Initial Mem.”), ECF No. 76. This Court denied defendants’
motion to suppress on November 6, 2015, finding that
“the [Lamarca Affidavit] taken as a whole provides ample basis for Judge Spatt’s finding of probable cause.”
Mem. and Order at 17, ECF No. 104. The Court, however, desired limited additional information from the
government regarding the nature of its cooperation
with Italian authorities before ruling on defendants’
discovery motion. Specifically, the Court wished to

App. 66
better understand the extent to which United States
authorities may or may not have assisted the Italians
in intercepting calls to or from defendants’ U.S.-based
telephone numbers.
At the Court’s request, the government, on November 23, 2015, filed a supplemental response to
defendants’ discovery demand. ECF No. 109. The government acknowledged that United States and Italian
law enforcement had been cooperating for years in efforts to target drug traffickers and members of the
‘Ndrangheta, see id. at 1, but it insisted that “[i]nformation obtained from Italian law enforcement, while
clearly useful and supportive of the American investigation, was the result of appropriate and lawful information-sharing between two countries conducting
independent investigations that had some overlapping
targets, not the result of Italian law enforcement acting as agents of the United States in an effort to circumvent due process of the Constitution,” id. at 3. The
government represented that “Italian law enforcement
did not seek, and no American agency provided, any
assistance in wiretapping” the U.S.-based or Italybased telephone numbers over which the defendants
may have been intercepted. Id. at 2. “Rather, communications to or from the U.S.-based phones [were] secured
through Italian judicial orders, and through the use of
Italian or other international telecommunication facilities.” Id. The government also noted that it had not
located any evidence that Italian agents had intercepted purely domestic calls (i.e., calls between two

App. 67
U.S.-based telephone numbers), as opposed to international calls. Id.
After counsel for Gregorio responded on December
10, 2015, ECF No. 111, attacking many of the assertions made by the government in its November 23,
2015, letter and other communications between the
parties, the government submitted a second supplemental response on December 18, 2015, ECF No. 113.
The government reiterated that although United
States and Italian law enforcement had cooperated
with one another for years, there was no evidence to
support any claim that United States law enforcement
had acted improperly or circumvented the Constitution. ECF No. 113. The government also explained that
it had already provided defendants with substantial
discovery in the ordinary course, including audio recordings of calls intercepted by Italian law enforcement over eleven telephone numbers and two car bugs,
along with corresponding linesheets, and the requests
and court authorizations for those wiretaps and bugs
executed by Italian authorities. Id. at 1. The government stated that “[t]he discovery from Italian sources
makes clear that the interception of the defendants
here, over international calls, was the product of Italian law enforcement complying with their own laws.”
Id. at 3.
On January 8, 2016, this Court denied defendants’
motion for discovery, stating that it “readily concludes
that additional discovery is not warranted and that no
valid basis for an exploratory hearing has been established.” Docket Entry dated Jan. 8, 2016.

App. 68
III. Present Motions
On January 6, 2016, two days before the Court’s
ruling on defendants’ initial discovery motion, Angelo
Gigliotti secured new counsel. See ECF Nos. 115-16.
Then, on March 24, 2016, Angelo’s new counsel filed
the present supplemental pretrial motions on Angelo’s
behalf, noting that Gregorio and Eleonora join in the
motion. See Mem. Law Supp. Angelo Gigliotti’s Suppl.
Pretrial Mots. (“Defs.’ Mem.”) at 1, ECF No. 138.3
Echoing many of the same points raised earlier, defendants once again seek an order from the Court suppressing evidence obtained from the wiretap on the
Cucino Landline, this time pursuant to (i) Franks v.
Delaware, 438 U.S. 154 (1978), because, it is argued,
the government intentionally or recklessly misled the
authorizing court with respect to the probable cause
supporting the wiretap application; and (ii) United
States v. Maturo, 982 F.2d 57 (2d Cir. 1992), because
the collaboration between United States and Italian
law enforcement with respect to this case violated
defendants’ Constitutional rights. See Defs.’ Mem. at
7-36. In the alternative, defendants seek a hearing on
these matters. Id. at 7, 31, 32, 36. In addition, defendants once again request additional discovery concerning the cooperation between United States and Italian
law enforcement. Id. at 32, 36.
3

Angelo’s counsel filed an initial copy of his memorandum in
support of the motions on March 24, 2016. ECF No. 136. He then
filed a corrected copy of the memorandum the next day. ECF No.
138. References to “Defs.’ Mem.” refer to the corrected copy of the
memorandum.

App. 69
DISCUSSION
I.

Suppression of Evidence Pursuant to Franks v.
Delaware

“Title III of the Omnibus Crime Control and Safe
Streets Act of 1968 provides for court-ordered interceptions of communications.” United States v. Yannotti,
541 F.3d 112, 124 (2d Cir. 2008) (citing 18 U.S.C.
§ 2518). “The statute allows a court to authorize a wiretap ‘if it determines, on the basis of the facts submitted
by the applicant, that there is probable cause to believe
(1) that an individual was committing, had committed,
or is about to commit a crime; (2) that communications
concerning that crime will be obtained through the
wiretap; and (3) that the premises to be wiretapped
were being used for criminal purposes or are about
to be used or owned by the target of the wiretap.’ ” Id.
(quoting United States v. Diaz, 176 F.3d 52, 110 (2d Cir.
1999)).
“The standard for probable cause applicable to
§ 2518 is ‘the same as the standard for a regular search
warrant.’ ” Diaz, 176 F.3d at 110 (quoting United
States v. Fury, 554 F.2d 522, 530 (2d Cir. 1977)). Probable cause is analyzed under the “totality of the circumstances.” Illinois v. Gates, 462 U.S. 213, 238 (1983).
That is, the issuing judge must “make a practical, common-sense decision whether, given all the circumstances set forth in the affidavit before him, including
the ‘veracity’ and ‘basis of knowledge’ of persons supplying hearsay information, there is a fair probability
that contraband or evidence of a crime will be found in
a particular place.” Id. “Due to this subjective standard,

App. 70
a reviewing court generally accords ‘substantial deference to the finding of an issuing judicial officer that
probable cause exists,’ limiting [its] inquiry to whether
the officer ‘had a substantial basis’ for his determination.” United States v. Raymonda, 780 F.3d 105, 113 (2d
Cir. 2015) (quoting United States v. Wagner, 989 F.2d
69, 72 (2d Cir.1993)); see also Gates, 462 U.S. at 236,
238.
On November 6, 2015, this Court denied defendants’ previous attempt to suppress evidence obtained
pursuant to the wiretap on the Cucino Landline, finding that despite defendants’ assertions to the contrary,
“the [Lamarca Affidavit] taken as a whole provides ample basis for Judge Spatt’s finding of probable cause.”
Mem. and Order at 17, ECF No. 104. The Court noted
that Castellano and four confidential informants “all
told virtually the same story and surveillance of the
restaurant and social club supported at least some of
the information provided.” Id. The Court also noted
that “more than one confidential informant had stated
that Gregorio was operating this criminal enterprise
from the restaurant, and agents had observed Gregorio
meeting with a cocaine supplier outside of the restaurant.” Id. at 18. The Court further noted that although
the vehicle that was stopped by agents in November
2011 had no direct connection to Gregorio, Gregorio
had been seen with the vehicle’s occupants the day
before, and the amount of money found inside the
vehicle matched the street value of the cocaine that
CI-4 had stated was at the Cucino Amodo Mio. Id.
Lastly, the Court found that the inference that the Oil

App. 71
Conversation—which was made from the restaurant’s
landline—contained coded references to cocaine sales
was “far from stretched, especially given the tip from
CI-3 that [Fazio] was selling [Gregorio’s] cocaine in Italy.” Id. Thus, the Court concluded that “the wiretap
application as a whole, considered under the totality of
the circumstances, clearly provides a ‘substantial basis’ for Judge Spatt’s determination that there was a
fair probability that drug-related conversations would
be intercepted.” Id.
Despite this Court’s earlier ruling, defendants
once again seek to suppress evidence obtained from the
wiretap on the Cucino Landline, this time pursuant to
Franks v. Delaware because the wiretap application
allegedly “contains material misrepresentations and
omissions without which there was no basis to find
probable cause.” Defs.’ Mem. at 7.
Under Franks, evidence obtained pursuant to a
wiretap application containing erroneous information
may be suppressed if the defendants show that: “(1) the
claimed inaccuracies or omissions are the result of the
affiant’s deliberate falsehood or reckless disregard for
the truth; and (2) the alleged falsehoods or omissions
were necessary to the [issuing] judge’s probable cause
[or necessity] finding.” United States v. Rajaratnam,
719 F.3d 139, 146 (2d Cir. 2013) (alterations in original)
(quoting United States v. Canfield, 212 F.3d 713, 71718 (2d Cir. 2000)); see also United States v. Awadallah,
349 F.3d 42, 64 (2d Cir. 2003) (“In order to invoke the
Franks doctrine, [the defendant] must show that there
were intentional and material misrepresentations or

App. 72
omissions in [the] warrant affidavit.”). The Second Circuit has applied this framework in the context of, inter
alia, challenges to Title III wiretap applications. See
Raiaratnam, 719 F.3d at 151-57.
In determining whether the alleged falsehoods or
omissions were necessary to the issuing judge’s probable cause finding, “[t]he ultimate inquiry is whether,
after putting aside erroneous information and [correcting] material omissions, there remains a residue
of independent and lawful information sufficient to
support [a finding of ] probable cause [or necessity].”
Raiaratnam, 719 F.3d at 146 (alterations in original)
(quoting Canfield, 212 F.3d at 718); see also McColley
v. Cty. of Rensselaer, 740 F.3d 817, 823 (2d Cir. 2014)
(“In determining whether omitted information was
necessary to the finding of probable cause, ‘we look to
the hypothetical contents of a “corrected” application
to determine whether a proper warrant application,
based on existing facts known to the applicant, would
still have been sufficient to support arguable probable
cause to make the arrest as a matter of law.’ ” (quoting
Escalera v. Lunn, 361 F.3d 737, 743-44 (2d Cir. 2004))).
Here, defendants allege the following misrepresentations and omissions with respect to the Lamarca
Affidavit: (1) the government “materially omitted”
from the affidavit—despite knowing full well—that
Italian authorities had been intercepting calls over the
Cucino Landline since April 14, 2014,4 see Defs.’ Mem.
4

In their opening brief, defendants make reference to an
Italian “wiretap” of the Cucino Landline. See, e.g., Defs.’ Mem. at

App. 73
at 10-16; (2) the government “deliberately mislead[ ]”
Judge Spatt into believing that the Italian authorities
had begun a wiretap on Fazio’s Italian cellular telephone in April 2014, whereas, in reality, the Italians
did not begin monitoring Fazio’s telephone until May
2014, see id. at 14-15; (3) the government “knowingly
or recklessly misstated” that the Oil Conversation concerned the sale of cocaine, see id. at 17-20; (4) the government’s account of the Agostino conversation was
“pure fiction,” and the government falsely suggested
that the conversation concerned a planned meeting between Fazio, Gregorio, and Agostino in Italy to consummate a drug trafficking transaction, id. at 25-30; (5) the
government failed to acknowledge that none of the conversations intercepted over the Cucino Landline during the period between the Oil Conversation and the
Agostino conversation supported probable cause, see
id. at 21-24; and (6) the government falsely claimed
that the United States and Italy were not conducting
a “joint investigation,” see id. at 15.
As before, defendants’ motion fails. While the
Lamarca Affidavit does contain certain limited errors
and omissions—some of which do trouble the Court
and warrant further explanation by the government—
10-16. After the government challenged this characterization, see
Government’s Mem. Law. Opp’n Defs.’ Suppl. Pretrial Mots.
(“Gov’t Mem.”) at 31 n.10, 33 n.12, ECF No. 145, defendants
acknowledged that “the Italian electronic surveillance [of the
Cucino Landline] was not a ‘wiretap’ in the traditional sense,”
given that it was intended to intercept only calls made to or from
Italy. See Reply Mem. Further Supp. Angelo Gigliotti’s Suppl.
Mots. (“Defs.’ Reply”) at 5 n.2, ECF No. 148.

App. 74
the Court is not convinced that such errors and omissions were deliberate or reckless. More importantly,
the Court finds that even the hypothetical contents of
a “corrected” affidavit would have been sufficient to
support probable cause. Therefore, the alleged errors
and omissions were not necessary to Judge Spatt’s
probable cause finding, and neither suppression nor a
hearing is warranted.
The government acknowledges that the affidavit
should have “set forth the full circumstances of the
Italian monitoring of the Cucino Telephone.” Gov’t
Mem. at 32. The government also acknowledges that
the affidavit should have stated that the Italian authorities began monitoring Fazio’s Italian cellular telephone in May 2014—rather than April 2014, as stated
in the affidavit—and that from the affidavit, “one
might infer that the April 15 Oil Conversation was captured on the FAZIO Cellphone when . . . it was actually
captured on the Italian monitoring of the Cucino
[Landline].” Id. at 31-32. The government denies, however, that either error was made intentionally or recklessly. See id. at 30-39. Rather, the government argues
that the errors were simply the product of sporadic
information-sharing between two parallel, fast-moving
investigations being conducted in different languages
and within different legal frameworks. Id. at 34-36.
The government also emphasizes that since the Italians’ monitoring of the Cucino Landline was designed
to intercept only calls between the Cucino Landline

App. 75
and telephones in Italy,5 and since the government did
not have real-time access to the calls that were intercepted, the Italians’ monitoring of the Cucino Landline
did not eliminate the necessity of the wiretap applied
for on June 30, 2014. See Gov’t Mem. at 36-37.
The Court agrees that the affidavit should have
disclosed that the Italians were monitoring the Cucino
Landline as of April 2014, and that the Italian wiretap
on Fazio’s Italian cellular telephone did not begin until
May 2014. The Court also appreciates that (a) the error
regarding when the Italians began monitoring Fazio’s
telephone could have misled Judge Span into believing
that the Oil Conversation was intercepted pursuant to
the Italians’ monitoring of Fazio’s telephone, rather
than their monitoring of the Cucino Landline, and that
(b) Judge Spatt may otherwise have inquired further
into how the Oil Conversation was intercepted. As discussed further below, however, the Court finds that this
error and this omission were not necessary to Judge
Spatt’s probable cause finding. Therefore, the Court
need not inquire further into whether they were made

5

Defendants note that despite the theoretically limited nature of the Italians’ monitoring of the Cucino Landline, the Italians apparently did, in fact, intercept twenty calls between the
Cucino Landline and Costa Rica or Switzerland. See Defs.’ Reply
at 5 n.2. While this is indeed curious and deserves a more satisfying explanation than the government’s representation that
“[t]he Italian authorities inadvertently intercepted a limited
number of international communications between the Cucino
[Landline] and telephones located in countries other than Italy,”
Gov’t Mem. at 31 n.10, the existence of these interceptions does
not alter the Court’s assessment of the present motions.

App. 76
deliberately or recklessly—a serious allegation of
which the Court is skeptical.
Defendants’ argument that the Lamarca Affidavit
failed to disclose that no conversations over the Cucino
Landline during the period between the Oil Conversation and the Agostino Conversation supported probable cause, see Defs.’ Mem. at 21-24, adds little to this
analysis. While it may or may not be true that no other
conversation intercepted during that period supported
probable cause, compare Defs.’ Reply at 8-11, with
Gov’t Mem. at 33-34, 37-38, this argument seems to be
more properly an extension of the prior argument, regarding the government’s failure to disclose the circumstances surrounding the Italians’ monitoring of
the Cucino Landline. That is to say, had the Lamarca
Affidavit properly reflected that the Italians had been
monitoring the Cucino Landline as of April 2014, including during the period between the Oil Conversation and the Agostino Conversation, then the fact that
the affidavit made no reference to any additional conversations during that period would speak for itself.
Defendants’ argument regarding the Lamarca Affidavit’s characterization of the Oil Conversation is a
non-starter. First, defendants’ belief that the recording
reflects that Gregorio says “tutto quanto,” rather than
“thirty-one,” see Defs.’ Mem. at 18-19, is irrelevant because, as the government points out, Agent Lamarca
did not have access to the actual recording as of June
30, 2014, and he accurately shared the ICE translation of the Italian transcript provided by Italian law

App. 77
enforcement.6 See Gov’t Mem. at 41. Second, the Court
is not concerned by the alleged inconsistency between
the $31,000 per kilogram price of cocaine articulated
in the Oil Conversation and other prices of cocaine articulated elsewhere in the affidavit. See Defs.’ Mem. at
19-20. Even if this were a legitimate inconsistency,
which the governments disputes, it was fully disclosed
to the reviewing court. See Gov’t Mem. at 42-43. Third,
defendants’ argument that “oil” was in fact a reference
to olive oil, rather than code for cocaine, says nothing
about Agent Lamarca’s subjective belief at the time he
drafted the affidavit, and defendants offer no proof
that Agent Lamarca did not reasonably believe—based
on his training and experience and in reliance on the
information provided to him by Italian investigators
with relevant expertise—that “oil” was indeed code
for cocaine. This Court agrees with the government
that “defendants have not demonstrated that Agent
Lamarca’s description of the April 15 Oil Conversation
was untrue, let alone intentionally or recklessly misleading.” Gov’t Mem. at 45.
Defendants’ argument regarding the Lamarca Affidavit’s characterization of the Agostino Conversation
is a closer call. Defendants are correct that the actual
transcript of the conversation seems to bear little resemblance to the summary provided in the affidavit,
6

The Court also notes that it did, at defense counsel’s urging,
see Defs.’ Mem. at 19, listen to the audio recording for itself. While
the Court certainly does not claim to have any expertise concerning the Italian language, the portion of the recording in question—which defense counsel provided to the Court on a CD,
repeated five times—sounded nothing like “tutto quanta.”

App. 78
and the government’s arguments to the contrary are
unpersuasive.7 It is also noteworthy, as defendants
point out, that Agent Lamarca did not provide any
quoted excerpts from the Agostino Conversation in the
affidavit, as he had for the Oil Conversation, despite
apparently having access to the transcript of the call.
See Defs.’ Mem. at 27; Gov’t Mem. at 45, 48. Nevertheless, the government is correct that Agent Lamarca
“specifically stated that the conversation was reported
in ‘sum and substance,’ and did not purport to quote
the statement verbatim.” Gov’t Mem. at 45. It also
appears to be the case that Agent Lamarca truthfully
reported what he had been told by the Italian investigator and an FBI agent fluent in Italian regarding the
conversation. Id. at 46, 48. As such, while defendants’
arguments here have merit and give the Court pause,
the Court, on balance, is not convinced that Agent
Lamarca’s characterization of the Agostino conversation necessarily rose to the level of representing a deliberate falsehood or reckless disregard for the truth.
More importantly, however, for the reasons discussed
below, the Court does not find that any misrepresentation regarding the Agostino Conversation was necessary to Judge Spatt’s probable cause finding.
Lastly, defendants’ argument that the government
falsely claimed that the United States and Italy were
7

The government assertion, for example, that Agostino’s
statement to Fazio, “send [your cousin] my regards . . . since
you’re going to Bologna,” could suggest merely that the mention
of Bologna prompted Agostino to think of Fazio’s cousin, not that
Fazio would give his cousin Agostino’s regards while in Bologna,
see Gov’t Mem. at 47, is stretched, to say the least.

App. 79
not conducting a “joint investigation,” id. at 15, has no
merit. As discussed at greater length below, see infra
Part II, there is simply no evidence that Agent Lamarca’s
characterization of the cooperation and coordination
taking place between the two governments was materially inaccurate.
In sum, although defendants’ arguments regarding the Oil Conversation and the cooperation between
the United States and Italian authorities have no
merit, defendants are correct that the Lamarca Affidavit reflects certain misrepresentations and omissions.
Specifically, the affidavit (1) failed to disclose that the
Italians had been intercepting calls over the Cucino
Landline since April 2014; (2) erroneously stated that
the Italian authorities had begun a wiretap on Fazio’s
Italian cellular telephone in April 2014 rather than in
May 2014; and (3) arguably misrepresented the Agostino Conversation.
Thus, a “corrected” affidavit would have disclosed
that the Italians had been monitoring the Cucino
Landline for over two months and that they had intercepted very few incriminating calls (potentially only
the Oil Conversation) during that time. The affidavit
would also have made clear, however, that the Italians
were not intercepting all calls to and from the Cucino
Landline—in particular, they were not intercepting
calls between the Cucino Landline and other U.S.based telephones—and the affidavit would still contain (a) the information provided by Castellano and
the four confidential informants, (b) the results of
the agents’ physical surveillance and vehicle stop in

App. 80
November 2011, (c) the information concerning the
toll records and pen register results, and (d) the information regarding defendants’ border crossings. See
Gov’t Mem. at 25-30; supra pp. 2-5, 10-11. The Court
concludes that such an affidavit would still have provided a substantial basis for Judge Spatt’s determination that there was a fair probability that drug-related
conversations would be intercepted, as indeed they
were. Thus, defendants’ motion to suppress the wiretap evidence is again denied, as is defendants’ request
for a hearing. See Franks, 438 U.S. at 171-72 (stating
that “if, when material that is the subject of the alleged
falsity or reckless disregard is set to one side, there remains sufficient content in the warrant affidavit to
support a finding of probable cause, no hearing is required”); United States v. Cromitie, No. 09-CR-558
(CM), 2010 WL 3025670, at *2 (S.D.N.Y. July 28, 2010)
(“The Second Circuit has emphasized that the standard for suppression ‘is a high one.’ Even to merit a
hearing on the issue, a defendant must make ‘a substantial preliminary showing’ of both elements.” (emphasis in original) (internal citation omitted) (quoting
Rivera v. United States. 928 F.2d 592, 604 (2d Cir.
1991), and Franks, 438 U.S. at 155)).
II.

Suppression of Evidence Pursuant to United
States v. Maturo and Additional Discovery

“[W]iretap evidence may be admissible when foreign officials, acting on their own to enforce foreign law,
properly follow their own law in obtaining the evidence, even where the subject of the foreign search is

App. 81
an American citizen.” United States v. Maturo, 982
F.2d 57, 60 (2d Cir. 1992) (internal citation omitted).
“[E]vidence obtained in a foreign jurisdiction may be
excluded,” however, (a) “where the conduct of foreign
officials in acquiring the evidence is ‘so extreme that
they shock the judicial conscience,’” or (b) “where cooperation with foreign law enforcement officials may
implicate constitutional restrictions.” Id. at 60-61
(quoting Stowe v. Devoy, 588 F.2d 336, 341 (2d Cir.
1978)). “Within the second category for excluding evidence, constitutional requirements may attach in two
situations: (1) where the conduct of foreign law enforcement officials rendered them agents, or virtual
agents, of United States law enforcement officials; or
(2) where the cooperation between the United States
and foreign law enforcement agencies is designed to
evade constitutional requirements applicable to American officials.” Id. at 61 (internal citation omitted).
Defendants argue that the evidence obtained pursuant to the wiretap on the Cucino Landline should be
suppressed pursuant to Maturo “in light of compelling
evidence that cooperation with Italian law enforcement officials by American law enforcement ‘may
[have] implicate[d] constitutional restrictions.’ ” Defs.’
Mem. at 32 (alterations in original). In the alternative,
defendants ask for a hearing. Id. at 32, 36. Defendants
also renew their earlier application for discovery concerning the degree of cooperation between the two governments. Id.
The Court has heard these arguments before and
rejected them. This issue, on slightly different terms,

App. 82
was briefed last year, see ECF No. 76 at 17-24; ECF No.
95 at 23-27; ECF No. 99 at 5-6, and discussed during
oral argument on October 8, 2015. See ECF No. 100.
The government then filed two supplemental letters
addressing this issue. See ECF Nos. 109, 113; see also
ECF No. 111. Following all of this, on January 8, 2016,
this Court denied defendants’ prior motion for additional discovery related to the cooperation between
United States and Italian law enforcement, readily
concluding that additional discovery was not warranted and that no valid basis for an exploratory hearing had been established. See Docket Entry dated Jan.
8, 2016.
Defendants now, once again, raise the specter of
improper cooperation between the United States and
Italian governments. See Defs.’ Mem. at 32-36; Defs.’
Reply at 20-23. Defendants add precious little new evidence to the discussion, however, and the Court, once
again, readily concludes that additional discovery is
not warranted and that an exploratory hearing is not
necessary. The Court likewise finds that there is no
basis to suppress evidence pursuant to Maturo. The
government has acknowledged from the outset that
the United States and Italian authorities have—as
they should—cooperated with one another for years.
There is simply no evidence, however, that the conduct of the Italian law enforcement officials rendered
them agents, or virtual agents, of United States law
enforcement, or that the cooperation between the two
governments was designed to evade constitutional requirements applicable to United States officials. The

App. 83
government has also made clear, several times, that
while it is true that the Italians were monitoring calls
to and from the Cucino Landline as of April 2014, they
were doing so as part of an independent investigation,
and they did not receive any technical assistance from
the United States government in doing so.
CONCLUSION
For the reasons discussed above, the Court denies
defendants’ supplemental pretrial motions. Suppression of the evidence obtained pursuant to the wiretap
on the Cucino Amodo Mio landline telephone is not
warranted under Franks, nor is it warranted under
Maturo. There is likewise no basis to hold a hearing
regarding the suppression of evidence under either
theory, nor is there any basis to grant defendants additional discovery regarding the cooperation between
United States and Italian authorities.
SO ORDERED.
Dated: Brooklyn, New York
June 30, 2016
/S/ USDJ RAYMOND J. DEARIE
RAYMOND J. DEARIE
United States District Judge

App. 84
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
-----------------------------------------------------------UNITED STATES OF AMERICA,
- against ANGELO GIGLIOTTI, ELEONORA
GIGLIOTTI, GREGROIO GIGLIOTTI,
Order
Filed Jan. 8,2016
ELECTRONIC ORDER as to Gregorio Gigliotti, Eleonora
Gigliotti, Angelo Gigliotti. The Court DENIES defendants’ 76 motion for additional discovery related to
the cooperation between American and Italian law enforcement authorities. Having reviewed the parties’
submissions, the Court readily concludes that additional discovery is not warranted and that no valid
basis for an exploratory hearing has been established.
So Ordered by Judge Raymond J. Dearie on 1/8/2016.
(Bodansky, Jonathan) (Entered: 01/08/2016)

App. 85
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------x
UNITED STATES
MEMORANDUM
OF AMERICA,
& ORDER
- against 15 CR 204 (RJD)
ANGELO GIGLIOTTI,
(Filed Nov. 6, 2015)
ELEONORA GIGLIOTTI,
GREGORIO GIGLIOTTI,
and FRANCO FAZIO,
Defendants.
----------------------------------------x
DEARIE, District Judge:
Defendants Gregorio Gigliotti, his wife Eleonora
Gigliotti, and their adult son Angelo Gigliotti are
charged with, inter alia, conspiracy to import and importation of cocaine, in violation of 21 U.S.C. §§ 952(a),
960(a)(1), 960(b)(1)(B)(ii), and 963. Indictment, ECF
No. 45; Superseding Indictment, ECF No. 51. The
cocaine was allegedly stashed inside shipments of
produce sent from Costa Rica to an import-export
company owned by Gregorio. Memorandum of Law in
Support of Pretrial Motions [hereinafter Defs.’ Mem.],
ECF No. 76 at 3.
Defendants submit joint pretrial motions, seeking,
inter alia, an order from the Court: (1) suppressing the
evidence seized from Cucino Amodo Mio, a restaurant
owned by Gregorio and Eleonora, as the fruit of a pretextual and warrantless search; and (2) suppressing

App. 86
evidence obtained from a wiretap on the landline in
Cucino Amodo Mio, because the wiretap was not supported by probable cause. For the reasons discussed below, the Court denies defendants’ suppression motions.
BACKGROUND
1. Wiretap of Cucino Amodo Mio’s Landline
On June 30, 2014, the Honorable Arthur D. Spatt,
United States District Judge for the Eastern District
of New York, granted the government’s application for
authorization to intercept conversations on the landline in Cucino Amodo Mio. Defs.’ Mem. at Ex. 3 (affidavit in support of wiretap). According to the affidavit
submitted in support of the wiretap application, the
sources of probable cause for the wiretap included, inter alia, the following:1
Beginning in or about 2007, the Italian Justice
Ministry, together with Italian law enforcement authorities, commenced an investigation into sources of drug
trafficking into Italy, including by individuals based in
New York. Id. at ¶ 19. Ultimately, hundreds of people
were arrested, both in Italy and the United States. Id.
Among those prosecuted in the Southern District of
New York were an Italian national living in Queens,
Giulio Schirippa, and an American co-conspirator,
Christopher Castellano. Id. Castellano proffered with
the government, advising that he had personally
1

The application also discussed toll records for the restaurant’s landline, which allegedly show numerous calls to suspicious
numbers, such as co-defendant Franco Fazio. Id. at ¶¶ 39-47.

App. 87
observed his and Schirippa’s cocaine supplier meet
with Gregorio and later learned that Gregorio had purchased $50,000 in cocaine. Id. at ¶ 21. Castellano was
shot and killed in 2009, while free on bail pending disposition of his case. Id. at ¶ 22.
Castellano and Schirippa’s cocaine supplier (“CI1”) later pled guilty to a narcotics-trafficking felony
charge and cooperated with the government.2 Id. at
¶ 23. During this cooperation, CI-1 informed the government that he/she had sold cocaine to Gregorio on
numerous occasions, which Eleonora would then take
to Italy for distribution. Id. at ¶ 24-25.
CI-1 believed that Gregorio was purchasing this
cocaine through funding obtained from Anthony Federicci—a member of the Genovese organized crime
family La Cosa Nostra—because he/she had observed
Gregorio and others bringing large sums of cash to and
from a social club adjacent to Cucino Amodo Mio
owned by Federicci. Id. at ¶¶ 12, 25.
A second confidential informant (“CI-2”), also
criminally associated with Schirippa, advised the government that Schirippa owed Gregorio a large sum of
money and that the informant had once seen Schirippa
make a payment of $30,000 in cash to Gregorio. Id. at
¶¶ 26, 28. A third confidential informant (“CI-3”)—an
individual with prior narcotics criminal history cooperating in hopes of obtaining consideration on pending
criminal charges—said that Gregorio had complained
2

CI-1 requested that this cooperation be taken into consideration with respect to his/her asylum petition. Id. at ¶ 23.

App. 88
in the informant’s presence that Schirippa and Castellano owed him a lot of money for a shipment of cocaine
to Italy that they claimed was of poor-quality and unsellable. Id. at ¶ 29.
In November of 2011, agents conducted visual surveillance of Cucino Amodo Mio and the adjacent social
club. Id. at ¶ 30. On November 9, 2011, the agents observed Gregorio meeting with an Hispanic male, John
Doe 1 (later identified in a collateral investigation as a
cocaine supplier), inside a nearby restaurant owned by
Federicci. Id. On November 10 and the morning of November 11, agents observed Gregorio with John Doe 1,
as well as two other men, John Does 2 and 3, entering
and exiting Cucino Amodo Mio and the adjacent social
club. Id. at ¶¶ 31-32. On the evening of November 11,
2011, agents observed John Does 2 and 3 drive up to
the social club. Id. at ¶ 32. When the agents later
stopped the vehicle for a speeding violation, they found
$500,000 stashed inside a hidden compartment. Id.
Around this same time, a fourth confidential informant
(“CI-4”)—an individual of undescribed background—
advised the government that Gregorio had approximately 14 kilograms of cocaine hidden in a safe at
Cucino Amodo Mio, which at that time would have
been worth approximately $500,000. Id. at ¶ 33.
In February of 2014, Gregorio stated in the presence of CI-3 that he had recently travelled to Italy in
search of buyers for 10 kilograms of cocaine and had
left 3 kilograms in Italy with his “cousin,” to search for
better offers. Id. at ¶ 35. A few months later, an Italian
investigation shared its intercept of a call between the

App. 89
Italian phone number of co-defendant Franco Fazio,
Gregorio’s cousin, and the Cucino Amodo Mio landline.
Id. at ¶ 37. On the call, Gregorio asks Fazio if “all the
oil [had] been given to [his] buddy.” Id. When Fazio replies yes, Gregorio responds “[o]kay, thirty-one, all
right.” Id. The agents believed that “oil” was code for
cocaine and “thirty-one” was the price per kilogram of
cocaine, in thousands. Id. at ¶ 38.
2. Search of Cucino Amodo Mio
On March 9, 2015, the Honorable Cheryl L. Pollak,
United States Magistrate Judge for the Eastern District of New York, granted the government’s application to search the premises of Cucino Amodo Mio for
records relating to the conspiracy to import cocaine
and computers or storage media that may contain such
records. Defs.’ Mem. at Ex. 1 (affidavit in support of
search warrant) at Attachment A. The sources of probable cause for this search warrant included numerous conversations, recorded on the wiretap of Cucino
Amodo Mio’s landline, implicating Gregorio, Eleonora,
and Angelo in a conspiracy to import cocaine from
Costa Rica through shipments of produce to Fresh
Farm Produce Export Corp. (“Fresh Farm”), an importexport company owned by Gregorio. Id. at ¶¶ 5, 7, 9-13,
17-19, 21-23, 26-29. On a few of these phone calls, Gregorio discusses using the computer in Cucino Amodo
Mio’s office to send emails to coconspirators and look
up shipping containers and implicates Cucino Amodo
Mio as being involved in the operations, saying to a coconspirator that he would contact him through his

App. 90
Cucino Amodo Mio email, not Fresh Farm, because
“Cucino Amodo Mio is me as well.” Id. at ¶¶ 25-29 (emphasis added). As a result of information gleaned from
these recordings, agents of the United States government were able to intercept two separate shipments of
yucca to Fresh Farm and recover approximately 55 kilograms of cocaine stashed inside the containers. Id. at
(¶¶ 20, 23.
Also included in the search warrant application
was information gathered during a March 3, 2015, warrantless administrative search of Cucino Amodo Mio,
conducted by an investigator. from the New York State
Liquor Authority (“NYSLA”) at the request and with
the participation of two detectives from the New York
City Police Department who were part of the criminal
investigation. Government’s Memorandum of Law in
Opposition to the Defendants’ Pretrial Motions [hereinafter Gov’t Mem.], ECF No. 95 at 5-7; ECF Nos. 77-79
(affidavits in support of defendants’ pretrial motions).
Upon arrival at the restaurant, the NYSLA investigator encountered Gregorio, Angelo, and Gregorio’s other
son, Andrea, and informed them that he was there to
inspect the restaurant pursuant to state liquor laws.
ECF Nos. 77-79; Gov’t Mem. at 5-7. Over the next 45
minutes to an hour, the investigator and the two detectives searched every room of the restaurant, which occupies the main floor and basement of a three story
building. ECF Nos. 77-79; Defs.’ Mem. at Ex. 1, ¶ 3. In
the restaurant’s basement, the detectives found and
photographed three locked safes, and in the restaurant’s office—a separate area in the basement—the

App. 91
detectives found and photographed a computer, a landline, and a file cabinet with a binder marked “Fresh
Farm Produce” on top. ECF Nos. 77-79; Gov’t Mem. at
5-7; Defs.’ Mem. at Ex. 1, ¶ 3. At the end of the visit,
the NYSLA investigator prepared a violation report for
an improper outdoor bar and homemade wine. Gov’t
Mem., Ex. 2.
Six days later, agents applied for a search warrant
for Cucino Amodo Mio. Defs.’ Mem., Ex. 1. The application included pictures and descriptions of the restaurant’s layout and confirmed the presence of the safes,
landline, computer, and Fresh Farm records in the
basement. Id. at ¶¶ 3, 25. The search was executed on
March 11, 2015, and produced significant physical evidence, including seven illegal firearms, ammunition,
over $100,000 in cash, a computer, shipping records,
and a handwritten ledger showing the movement of
large sums of money. Gov’t Mem. at 8.
PROCEDURAL HISTORY
Defendants Gregorio, Eleonora, and Angelo were
indicted on April 22, 2015, on one count of conspiracy
to import cocaine. ECF No. 45. A superseding indictment filed on May 6, 2015, added Fazio as a fourth defendant, as well as five more counts, including, inter
alia, importation of cocaine and unlawful use and possession of firearms. ECF No. 51.
On August 19, 2015, defendants Gregorio, Eleonora, and Angelo filed joint pretrial motions, seeking
an order from the Court: (1) suppressing the evidence

App. 92
seized from Cucino Amodo Mio as the fruit of a pretextual and warrantless search; (2) directing the government to provide additional information about the
nature of its cooperation with Italian authorities during the criminal investigation; (3) excluding evidence
obtained pursuant to grand jury subpoenas that instructed recipients not to disclose the existence of the
subpoena; (4) suppressing evidence obtained from the
wiretap on the landline in Cucino Amodo Mio because
the wiretap was not supported by probable cause;
(5) requiring the government to disclose whether
it acquired information from previously undisclosed
methods and sources; (6) requiring the government
to identify all Brady and Giglio material immediately
and to provide exhibits in advance of trial; (7) directing
the government to disclose any Rule 404(b) evidence;
and (8) directing the government to make immediate
expert-witness disclosure. ECF No. 76. During oral argument on defendants’ joint pretrial motions on October 8, 2015, the Court addressed the routine motions
and requested further information from the government regarding the grand jury subpoenas and cooperation with Italian authorities. ECF No. 100. The Court
now rules on the suppression motions.
DISCUSSION
1. Suppression of Evidence Seized from Cucino
Amodo Mio
Defendants move to suppress the evidence seized
from Cucino Amodo Mio during the execution of
the search warrant as fruits of a “pretextual and

App. 93
warrantless” search.3 While defendants’ argument is
not entirely without merit, the Court ultimately denies
the suppression motion and upholds the search warrant under the “independent source” doctrine.4
The Supreme Court recognized in New York v.
Burger that warrantless administrative searches of
“commercial properties] employed in ‘closely regulated’
industries” are constitutionally permissible where (1)
“a ‘substantial’ government interest . . . informs the
regulatory scheme pursuant to which the inspection is
made,” (2) “the warrantless inspections” are “necessary
to further the regulatory scheme,” and (3) “the statute’s
inspection program, in terms of the certainty and regularity of its application,” provides “a constitutionally
adequate substitute for a warrant.” 482 U.S. 691, 700,
702-03 (1987) (internal citations, quotation marks, and
alterations omitted). Here, both sides agree that the
relevant New York liquor law satisfies the requisite criteria.
3

Defendants also move to suppress any evidence obtained
during the March 3 search. However, the government states that
it does not intend to introduce any such evidence at trial.
4
As an initial matter, based on the record before the Court
at this time, the Court agrees with the government that Angelo
lacks standing to challenge the March 3 inspection of Cucino
Amodo Mio because he did not have a legitimate expectation of
privacy in the area searched. See United States v. Tranquillo, 606
F. Supp. 2d 370, 377 (S.D.N.Y. 2009) (noting that “the less private
a work area—and the less control a defendant has over that work
area—the less likely standing is to be found”) (internal quotation
marks and citation omitted). However, even assuming that Angelo had standing, his challenge would fail on the merits for the
same reasons discussed herein.

App. 94
Defendants argue, however, that the March 3 inspection of Cucino Amodo Mio was transparent abuse
of the NYSLA’s authority to conduct warrantless administrative searches of commercial premises, because
the primary purpose of the inspection was to gain information for the government’s criminal investigation.
For its part, the government freely admits that the
NYSLA inspection occurred at the behest of criminal
investigators but claims that the objective was merely
to observe the layout of the restaurant. Furthermore,
the government states that the NYSLA would have
had to conduct an inspection anyway, as the restaurant’s liquor license was about to expire. Accordingly,
the government argues that the March 3 inspection is
permissible as a “mixed purpose” search.
Although it has not spoken directly on point, the
Supreme Court noted in Burger—when upholding
the constitutionality of a warrantless administrative
search of an automobile junkyard for stolen vehicles—
that “[t]he discovery of evidence of crimes in the course
of an otherwise proper administrative inspection does
not render that search illegal or the administrative
scheme suspect.” Id. at 716-17 (noting also that there
was no “constitutional significance in the fact that police officers, rather than ‘administrative’ agents, [we]re
permitted to conduct” searches under the administrative scheme) (emphasis added). The New York Court of
Appeals had found the administrative search in that
case unconstitutional, noting that “[t]he fundamental
defect in the [relevant administrative scheme] . . .
[wa]s that [it] authorize[d] searches intended solely to

App. 95
uncover evidence of criminality. . . .” People v. Burger,
67 N.Y.2d 338, 344, 493 N.E.2d 926, 929 (1986) (emphasis added). In his dissenting opinion, Justice Brennan agreed with the New York Court of Appeals and
criticized the majority opinion for “implicitly hold[ing]
that if an administrative scheme has certain goals and
if the search serves those goals, it may be upheld even
if no concrete administrative consequences could follow. . . .” Burger, 482 U.S. at 728 (emphasizing that
“[t]his [wa]s a dangerous suggestion, for the goals of
administrative schemes often overlap with the goals of
the criminal law”).
Thirteen years later, the Supreme Court held that
a vehicle checkpoint designed to interdict narcotics
was unconstitutional “[b]ecause the primary purpose
of the” checkpoint was “ultimately indistinguishable
from the general interest in crime control,” as opposed
to the more acute public safety interests implicated by
border crossings and drunk driver stops. City of Indianapolis v. Edmond, 531 U.S. 32, 48 (2000) (emphasis
added). In so holding, the Supreme Court cited Burger
to support the position that “while ‘[s]ubjective intentions play no role in ordinary, probable-cause Fourth
Amendment analysis,’ . . . programmatic purposes may
be relevant to the validity of Fourth Amendment intrusions undertaken pursuant to a general scheme without individualized suspicion.” Id. at 45-46 (quoting
Whren v. United States, 517 U.S. 806, 813 (1996)).
Using this and other precedent, the Fourth, Tenth,
and Eleventh Circuits have established a general rule
that an administrative search should be considered a

App. 96
pretext, and thus deemed impermissible, if the sole or
primary purpose of the search was to gather evidence
of criminal activity. See Ruttenberg v. Jones, 283 Fed.
App’x 121, 133 (4th Cir. 2008) (finding that administrative searches “cannot be used as a pretext for what is,
in reality, a purely criminal investigation” because
“[o]therwise, such inspections could serve as a convenient circumvention of the normal strictures placed on
law enforcement officers”) (emphasis added); see also
United States v. Johnson, 408 F.3d 1313, 1323 (10th
Cir. 2005) (noting that “an administrative inspection
may encompass both an administrative and a criminal
law enforcement purpose,” and “the officers’ motive is
irrelevant” but the administrative inspection may not
be “a pretext solely to gather evidence of criminal activity”) (emphasis added) (internal quotation marks
and citation omitted); Bruce v. Beary, 498 F.3d 1232,
1239 (11th Cir. 2007) (“The administrative search exception does not confer authority on law enforcement
to ignore the requirement for a warrant where ‘the primary purpose [of the search . . . ] was to detect evidence
of ordinary criminal wrongdoing.’ ”) (quoting City of
Indianapolis, 531 U.S. at 37) (emphasis added); cf. Club
Retro, L.L.C. v. Hilton, 568 F.3d 181, 197-99 (5th Cir.
2009) (noting that “[e]ven under a valid inspection regime, the administrative search cannot be pretextual”
and finding that alcohol control, fire safety, and firearm
laws “do not grant law enforcement officers unfettered
discretion to conduct searches of business premises
through any means of their choosing”).

App. 97
The Second Circuit has yet to define the precise
contours of the administrative search exception. In
Anobile v. Pelligrino, defendants challenged the warrantless administrative search of horse racing stables
and dormitories, arguing that the state statute allowed
inspections to search for evidence of horse doping,
not—as was an admitted purpose of the search in that
case—to look for evidence of drug use and other illegal
activities by employees and visitors of the racetrack.
303 F.3d 107, 121-23 (2d Cir. 2001). The Second Circuit
denied defendants’ challenge as to any search of the
stables, finding that such a search “f[e]ll within the
scope of the regulations.” Id. at 123. As for the search
of the dormitories, the Second Circuit noted that this
was arguably “a ‘mixed purpose’ [search], where the
primary purpose [wa]s legitimate and the secondary
purpose [wa]s not. Id. at 122 (emphasis added). However, because the dormitory search was unconstitutional on other grounds not relevant here, the Second
Circuit declined to “decide whether this ‘mixed purpose’ search exceeded a constitutionally allowable
scope.” Id. at 123.
Following Anobile, at least two district courts in
this Circuit have concluded that “mixed purpose”
searches are permissible, so long as the administrative
inspections are “legitimate.” See United States v.
Funaro, 253 F. Supp. 2d 286, 296-97 (D. Conn. 2003)
(citations omitted) (“Law enforcement agents may
conduct an administrative inspection for the simultaneous pursuit of an administrative objective and
the gathering of evidence for criminal purposes if the

App. 98
administrative inspection is authorized and legitimate.”) (citations omitted) (emphasis added); United
States v. Sorcher, No. 05-CR-0799 (NG) (RLM), 2007
WL 1160099, at *1, 5 (E.D.N.Y. Apr. 18, 2007) (citing
Funaro to conclude that “absent a demonstration of
bad faith” a warrantless inspection of a school receiving funding to provide free meals would not be unconstitutional even if the inspecting agency had both
administrative and criminal investigatory objectives)
(adopting report and recommendation).
In the case at hand, NYSLA investigators and
other state actors, such as police officers, are clearly
permitted to conduct warrantless inspections of commercial properties with liquor licenses, see N.Y. Alco.
Bev. Contr. Law § 106(15) (McKinney 2014), and defendants admit that Cucino Amodo Mio’s liquor license
was up for renewal. At the same time, however, there
is arguable merit to defendants’ contention that—despite the significant evidence already assembled that
readily supported a successful search warrant application just days later—any administrative enforcement
concerns of the NYSLA in this case were secondary to
the criminal investigatory goals of the inspection. Under the existing case law, the line between a legitimate
administrative search and a pretextual administrative
search is hazy and ill-defined, and the facts of this case
lie in the blurred boundaries of such a determination.
The Court need not, however, address today whether
that line has been crossed. For, as discussed below,
even if the March 3 warrantless administrative search
lacked legitimacy in the Fourth Amendment context,

App. 99
the inclusion of limited observations from this inspection in the application for the subsequently obtained
search warrant did not taint the warrant’s validity.5
Under the independent source doctrine, “[i]f police
seize evidence pursuant to a valid search warrant obtained on the basis of information unconnected to an
earlier Fourth Amendment violation, there is an independent source for the seizure, and the evidence is untainted and admissible.” United States v. O’Brien, 498
F. Supp. 2d 520, 540 (N.D.N.Y. 2007) (citing Murray v.
United States, 487 U.S. 533, 540-41 (1988)); see also
Murray, 487 U.S. at 542 and n.3 (noting that “[t]o determine whether the warrant was independent of the
illegal entry, one must ask whether it would have been
sought even if [the illegal entry] had not occurred” or
“if information obtained during that entry was presented to the [authorizing judge] and affected his decision to issue the warrant”); United States v. Johnson,
994 F.2d 980, 987 (2d Cir. 1993) (“Courts have applied
5

Given the Court’s decision to uphold the search warrant under the “independent source” doctrine, the Court does not reach
defendants’ additional argument that the NYSLA investigator
falsely represented that the detectives were inspectors for the
NYSLA, thereby invalidating any consent to search. See United
States v. Bosse, 898 F.2d 113, 115 (9th Cir. 1990) (“ ‘[A]ccess
gained by a government agent, known to be such by the person
with whom the agent is dealing, violates the fourth amendment’s
bar against unreasonable searches . . . if such entry was acquired
by affirmative or deliberate misrepresentation of the nature of the
government’s investigation.’ ”) (alteration in original) (citation
omitted). In any event, consent is not necessary if the administrative search exception applies. See Anobile, 303 F.3d at 123 (“It is
axiomatic that a state actor does not need consent to conduct a
constitutionally permissible search.”).

App. 100
the independent source exception in cases where the
police stumble upon evidence while engaging in an unlawful search or entry, but where there was an independent basis apart from the illegal entry to allow a
warrant to issue.”). “For the independent source doctrine to apply ‘(1) the warrant must be supported by
probable cause derived from sources independent of
the illegal entry; and (2) the decision to seek the warrant may not be prompted by information gleaned from
the illegal conduct.” United States v. Mulholland, ___
F. App’x ___, 2015 WL 5949848, at *2 (2d Cir. 2015)
(quoting Johnson, 994 F.2d at 987).
Here, by the time of the March 3 inspection, the
government had already amassed a significant amount
of evidence suggesting that defendants were importing
cocaine and that there was a “fair probability that contraband or evidence of ” this crime would be found in
Cucino Amodo Mio. Illinois v. Gates, 462 U.S. 213, 238
(1983). The government had recorded numerous suspect phone conversations placed from Cucino Amodo
Mio’s landline. In some of these calls, defendants discussed using the restaurant’s computer to contact coconspirators and look up shipping containers, and in
one call Gregorio implied that Cucino Amodo Mio was
involved in the operations, stating to a co-conspirator
that “Cucino Amodo Mio is me as well.” Moreover, the
government had seized 55 kilograms of cocaine
stashed in Fresh Farm produce containers, which is
highly suggestive of the fact that Gregorio was comfortable blurring the lines between his legitimate
and illegitimate businesses. Given this overwhelming

App. 101
independent support for the search warrant, any information gleaned from the March 3 inspection was not
merely redundant but excessively so. Similarly, given
the length and extent of the criminal investigation
prior to that point, it is beyond contention that the decision to seek the search warrant was not prompted in
any way by the March 3 inspection.
Seemingly conceding this point, defense counsel
instead maintained during oral argument that the
search warrant application would have been insufficiently particular as to the place to be searched, without knowledge of the layout of Cucino Amodo Mio’s
basement. The government admits that the agents
were not aware of the exact layout of the restaurant’s
basement prior to the March 3 inspection. Indeed, determining this layout was part of the reason the detectives suggested an inspection of Cucino Amodo Mio to
the NYSLA. Nonetheless, the government argues that
the search warrant would not have lacked particularity, even without a description of the restaurant basement’s layout. The Court agrees.
“To protect against unreasonable searches and seizures, the Fourth Amendment states that ‘no warrants
shall issue, but upon probable cause, supported by oath
or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.’ ”
United States v. Clark, 638 F.3d 89, 94 (2d Cir. 2011)
(quoting U.S. Const. amend. IV) (emphasis added).
“Particularity concerns frequently arise in circumstances where the description in the warrant of the
place to be searched is so vague that it fails reasonably

App. 102
to alert executing officers to the limits of their search
authority . . . or where the place described in the warrant does not comport with the place confronting officers when they attempt execution. . . .” Id. (citations
omitted). At the same time, the Supreme Court has
stated that “[a] lawful search of fixed premises generally extends to the entire area in which the object of
the search may be found and is not limited by the possibility that separate acts of entry or opening may be
required to complete the search.” United States v. Ross,
456 U.S. 798, 820-21 (1982). Furthermore, “ ‘affidavits
for search warrants . . . must be tested and interpreted
by magistrates and courts in a commonsense and realistic fashion.’ ” United States v. Waker, 534 F.3d 168,
171 (2d Cir. 2008) (quoting United States v. Ventresca,
380 U.S. 102, 108 (1965)).
With these principles in mind, Judge Cote held
that the search of a storage room in the basement of a
restaurant was reasonable, despite the fact that the restraining order6 only authorized law enforcement officials to “ ‘enter . . . the Restaurant Business,’ which
had been described as ‘located on the second floor at
900 Morris Park Avenue.’ ” United States v. Rudaj, No.
04-CR-1110 (DLC), 2005 WL 2420360, at *2-3 (S.D.N.Y.
Oct. 3, 2005) (noting that a “plausible reading of this
phrase is as a nonrestrictive descriptor, to identify for
law enforcement officials the target of their search, rather than to define its precise geographical limits”). As
6

Judge Cote emphasized that “[b]ecause the [r]estraining
[o]rder functioned essentially as a search warrant, it should be
interpreted as if it were one.” Rudaj, 2005 WL 2420360, at *2.

App. 103
Judge Cote emphasized, “[t]he [o]rder authorize[d] the
search of [the] restaurant for the express purpose of
making an inventory of its assets.” Id. at 4. Accordingly,
“[a] commonsense, practical reading of th[e] [o]rder,
consistent with its purpose, would allow the searching
officers to enter a storage room directly connected to
the restaurant, even if the restaurant is described as
being located on the second floor, and the storage room
is on another floor of the building.” Id.; see also United
States v. Canestri, 518 F.2d 269, 273-74 (2d Cir. 1975)
(upholding search of locked storeroom in basement of
one-family home where warrant permitted search of
entire house); cf United States v. Bermudez, 526 F.2d
89, 96-97 (2d Cir. 1975) (affirming suppression of evidence seized from search of clothing store because the
warrant, which described the location of the search as
merely the street address of the building in which store
was located, “could have permitted a search of the entire building” but the store was only located on two
floors).
Here, the search warrant application requested
authorization to search the premises of Cucino Amodo
Mio, a restaurant, for all records relating to the conspiracy to import cocaine and computers or storage media that may contain such records. The agents on the
criminal investigation knew from the wiretap that
there was a computer and a landline in Cucino Amodo
Mio long before the March 3 inspection, and it is obvious that these items would be located in a non-public

App. 104
space inside the restaurant, such as an office.7 Accordingly, even without a precise description of the layout
of the basement (or even of the restaurant as a whole),
a “commonsense, practical reading” of the search warrant, “consistent with its purpose,” would allow the
agents to search a private office in the restaurant’s
basement. Rudaj, 2005 WL 2420360, at *4.
In sum, whether or not the March 3 warrantless
administrative search of Cucino Amodo Mio violated
the Fourth Amendment, the subsequently obtained
search warrant was not tainted by this inspection and
would have been sufficiently particular even without
the information gleaned therefrom. Accordingly, defendants’ motion to suppress the evidence obtained
from the execution of the search warrant at Cucino
Amodo Mio is denied.
2. Suppression of Evidence Obtained from Wiretap of Cucino Amodo Mio’s Landline
Defendants next argue that evidence obtained
pursuant to the wiretap on the landline in Cucino
Amodo Mio must be suppressed, because the application did not establish probable cause to believe that
drug-related conversations would be intercepted, nor

7

At any rate, the agents knew that the landline was located
in the basement office of the restaurant prior to the March 3 inspection, because—as noted in the application for a wiretap of the
landline, granted in June of the previous year—the confidential
informants had been in the office and informed the agents of its
location. Defs.’ Mem. at Ex. 3 at ¶¶ 4, 53.

App. 105
could the agents have believed in good faith that such
probable cause existed.
“Title III of the Omnibus Crime Control and Safe
Streets Act of 1968 provides for court-ordered interceptions of communications.” United States v. Yannotti,
541 F.3d 112, 124 (2d Cir. 2008) (citing 18 U.S.C.
§ 2518). “The statute allows a court to authorize a wiretap ‘if it determines, on the basis of the facts submitted
by the applicant, that there is probable cause to believe
(1) that an individual was committing, had committed,
or is about to commit a crime; (2) that communications
concerning that crime will be obtained through the
wiretap; and (3) that the premises to be wiretapped
were being used for criminal purposes or are about to
be used or owned by the target of the wiretap.’ ” Id.
(quoting United States v. Diaz, 176 F.3d 52, 110 (2d Cir.
1999)).
“The standard for probable cause applicable to
§ 2518 is the same as the standard for a regular search
warrant.” Diaz, 176 F.3d at 110 (internal quotation
marks and citation omitted). Probable cause is analyzed under the “totality of the circumstances.” Gates,
462 U.S. at 238. That is, the issuing judge must “make
a practical, common-sense decision whether, given all
the circumstances set forth in the affidavit before him,
including the ‘veracity’ and ‘basis of knowledge’ of persons supplying hearsay information, there is a fair
probability that contraband or evidence of a crime will
be found in a particular place.” Id. “Due to this subjective standard, a reviewing court generally accords ‘substantial deference to the finding of an issuing judicial

App. 106
officer that probable cause exists,’ limiting [its] inquiry
to whether the officer ‘had a substantial basis’ for his
determination.” United States v. Raymonda, 780 F.3d
105, 113 (2d Cir. 2015) (quoting United States v. Wagner, 989 F.2d 69, 72 (2d Cir.1993)); see also Gates, 462
U.S. at 236, 238.
Defendants argue that the affidavit did not give
Judge Spatt enough information to conclude, under the
totality of the circumstances, that the four confidential
informants were credible or that their information
was reliable. Furthermore, defendants argue that the
seizure of $500,000 from a vehicle that stopped at the
social club shortly after CI-4 told investigators that
Gregorio had 14 kilograms of cocaine in his restaurant’s basement does not support the conclusion that
Cucino Amodo Mio was used to store drugs and drug
money. Finally, defendants call into question the source
and value of the toll records for the landline and argue
that there is no basis to conclude that Gregorio’s conversations with his cousin about “oil” were code for cocaine. Such “attempts to pick apart the government’s
presentation,” however, “ignore[ ] the admonition of
cases like . . . Gates that a court must look at the
government’s support for probable cause as a whole.”
United States v. Bellomo, 954 F. Supp. 630, 636
(S.D.N.Y. 1997). And the affidavit taken as a whole provides ample basis for Judge Spatt’s finding of probable
cause.
Though Castellano and at least three of the four
confidential informants were all criminals, the informants all told virtually the same story and surveillance

App. 107
of the restaurant and social club supported at least
some of the information provided. See McColley v. Cnty
of Rensselaer, 740 F.3d 817, 823 (2d Cir. 2014) (noting
that district courts evaluating probable cause “when
the facts offered are based upon information from a
confidential informant,” must “examine[ ] the ‘totality
of the circumstances,’ ” and may consider the “extent
to which [the] informant’s statements . . . are independently corroborated”) (internal quotation marks
and citation omitted); United States v. Gagnon, 373
F.3d 230, 236 (2d Cir. 2004) (“In addition to considering an informant’s veracity, reliability, and basis of
knowledge, in assessing the totality of the circumstances we also evaluate whether the information an
informant provides is corroborated by independent police investigation . . . because an informant who is
right about some facts is more likely to be right about
others. . . .”) (internal citations omitted).
Furthermore, although the vehicle had no direct
connection to Gregorio, he had been seen entering and
exiting the social club with the vehicle’s occupants the
day before, and the amount of money found in the vehicle matched the street value of the cocaine that CI-4
had stated was at the restaurant. Finally, even without
the suspicious toll records, the inference that Gregorio
and Fazio’s conversation in the interception provided
by the Italian investigation contains coded references
to cocaine sales is far from stretched, especially given
the tip from CI-3 that Gregorio’s cousin was selling his
cocaine in Italy. And even if each of these items alone
is not sufficient to establish probable cause for a

App. 108
wiretap of Cucino Amondo Mio’s landline, the wiretap
application as a whole, considered under the totality of
the circumstances, clearly provides a “substantial basis” for Judge Spatt’s determination that there was a
fair probability that drug-related conversations would
be intercepted. Gregorio’s suspicious call to Fazio had
been made from the restaurant’s landline, more than
one confidential informant had stated that Gregorio
was operating this criminal enterprise from the restaurant, and agents had observed Gregorio meeting
with a cocaine supplier outside of the restaurant.
Accordingly, defendants’ motion to suppress the
evidence obtained pursuant to the wiretap on the landline in Cucino Amodo Mio is denied.
CONCLUSION
For the reasons discussed above, the Court denies
defendants’ suppression motions. First, while defendants’ argument that the March 3 warrantless administrative search of Cucino Amodo Mio violated the
Fourth Amendment is not without possible merit, the
Court denies defendants’ motion to suppress evidence discovered during the subsequent execution of
a search warrant at the restaurant and upholds that
search warrant under the “independent source” doctrine. Second, the Court denies defendants’ motion to
suppress the evidence obtained pursuant to the wiretap on the landline in Cucino Amodo Mio, because
there was probable cause to believe that drug-related
conversations would be intercepted.

App. 109
SO ORDERED.
Dated: Brooklyn, New York
November 6, 2015
/s/ Judge Raymond J. Dearie
RAYMOND J. DEARIE
United States District Judge

App. 110
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
------------------------------------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 15th day of April, two
thousand twenty-one.
United States of America,
Appellee,
v.
Eleonora Gigliotti,
Franco Fazio,
Defendants,

AMENDED ORDER
Docket Nos: 17-1541(L)
17-2166 (Con)
(Filed Apr. 15, 2021)

Gregorio Gigliotti,
Angelo Gigliotti,
Defendants - Appellants.
Appellants, Gregorio Gigliotti and Angelo Gigliotti,
filed a petition for panel rehearing, or, in the alternative, for rehearing en banc. The panel that determined
the appeal has considered the request for panel rehearing, and the active members of the Court have considered the request for rehearing en banc.

App. 111
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

